                   UNITED STATES DEPARTMENT OF AGRICULTURE
                              OFFICE OF INSPECTOR GENERAL

                                  Washington D.C. 20250




    DATE:   February 11, 2000

REPLY TO
 ATTN OF:   09016-1-Te

 SUBJECT:   Telephone Loan Program Policies and Procedures

      TO:   Wally B. Beyer
            Administrator
            Rural Utilities Service

    ATTN:   Sherie Hinton Henry
            Director
            Financial Management Division


This report presents the results of our audit of Rural Utilities Service’s
(RUS) telephone loan program policies and procedures. RUS’ written response
to the draft report is included as exhibit F, and RUS’ comments and the Office
of Inspector General (OIG) position concerning the written response are set
forth in the Recommendations sections of the report.

We do not agree with RUS’ management decisions for Recommendations Nos. 1, 2,
3, and 4. Additional information is needed to reach agreement on the
management decisions for these recommendations. The information needed to
reach agreement is set forth in the Recommendations sections of the report.

Please furnish the information needed to reach agreement on the management
decisions for Recommendations Nos. 1, 2, 3, and 4 by March 31, 2000. Please
note that Departmental Regulation 1720-1 requires a management decision for
all recommendations within a maximum of 6 months from the date of report
issuance. Follow your internal agency procedures in forwarding final action
correspondence to the Office of the Chief Financial Officer.

We appreciate the cooperation and courtesies provided during the evaluation.
If you have any questions, please have a member of your staff contact
Rebecca A. Batts, Director, Rural Development and Natural Resources Division,
at 720-6805.




JAMES R. EBBITT
Assistant Inspector General
  for Audit
        RURAL UTILITIES SERVICE
       TELEPHONE LOAN PROGRAM
       POLICIES AND PROCEDURES
            WASHINGTON, D.C.
       AUDIT REPORT NO. 09016-1-Te

             FEBRUARY 2000




UNITED STATES DEPARTMENT OF AGRICULTURE
   OFFICE OF INSPECTOR GENERAL - AUDIT
            SOUTHWEST REGION
    ROOM 324, FEDERAL OFFICE BUILDING
          101 SOUTH MAIN STREET
           TEMPLE, TEXAS 76501
                        EXECUTIVE SUMMARY
                         RURAL UTILITIES SERVICE
                        TELEPHONE LOAN PROGRAM
                        POLICIES AND PROCEDURES
                            WASHINGTON, D.C.
                           AUDIT NO. 09016-1-Te



                                      Thisreport presents the results of our
      RESULTS IN BRIEF              review  of the Rural Utilities Service’s
                                    (RUS) Telephone Loan Program.          We
                                    initiated   this  review   to   determine
                                    whether RUS continues to make and service
         loans to telephone company borrowers who could obtain financing from
         other credit sources. In January 1998, the U.S. General Accounting
         Office (GAO) reported some options that Congress could consider to
         make the telephone loan program more effective and less costly. The
         GAO found that RUS made loans to financially healthy borrowers that
         may not need Federal assistance and that the implementation of loan
         graduation procedures could assist in moving such borrowers to
         commercial credit sources.

            GAO found that many telephone borrowers had favorable financial
            characteristics. Specifically, about 24 percent of the borrowers
            had net worth (total assets less total liabilities) of $10 million
            or more at the end of the year prior to receiving RUS loans, and
            another 65 percent had net worth between $1 million and $10 million.
            In addition, about 29 percent of the borrowers had net income of
            $1 million or more in the year prior to receiving the loans, and
            another 61 percent had net income between $100,000 and $1 million.
            Furthermore, about 80 percent of the borrowers had a current ratio
            (a measure of the extent to which a borrower has sufficient current
            assets to cover its current liabilities) of 2 or more times;
            83 percent had a debt-to-asset ratio (the extent to which a borrower
            has sufficient assets to cover all of its debt) of 70 percent or
            less; and 87 percent had a times-interest-earned ratio (TIER; the
            extent to which a borrower can pay its annual interest expenses from
            its net income) of 2 or more.

            GAO also found that because graduation is not an integral part of
            RUS’s operation, some borrowers may have direct loans longer than
            needed and are therefore able to take advantage of the favorable
            terms that exist with such programs.       GAO reported that RUS
            continues to incur interest and other administrative expenses in
            servicing the accounts of financially healthy borrowers.      GAO
            reported that many borrowers with outstanding direct loans as of
            December 31,   1996,  had   favorable  financial  characteristics
            indicating that they may be viable candidates for having the
            commercial sector refinance their RUS debt.




USDA/OIG-A/09016-1-Te                                                    Page i
                                 FEBRUARY 2000
            Our review found that little has changed since the GAO review. We
            found that although Congressional policy for making and servicing
            telephone program loans have led to the substantial improvement in
            the financial condition of borrowers, the policy has not resulted in
            moving financially strong borrowers to non-Government credit
            sources. We found that RUS continues to make and service loans to
            financially strong borrowers who likely could obtain financing from
            other sources. RUS has not established procedures and requirements
            for financially strong borrowers to seek credit from other sources
            nor has it established a loan graduation program for borrowers who
            no longer need Government assistance because the RE Act does not
            require such procedures.

            Congressional policy requires RUS to assist borrowers to achieve
            financial strength to enable them to satisfy their credit needs from
            their own financial organizations and other sources. However, loan
            eligibility criteria is not based on financial need and Congress
            expects RUS to use all available loan funds.      Also, RUS’ annual
            appropriation budget is based on anticipated loan requests from all
            applicants regardless of financial condition.      As a result, RUS
            makes loans to telephone companies regardless of financial strength.

            Our trend analysis of key financial ratios for the 17-year period
            1981 through 1997 revealed that many RUS borrowers are financially
            strong, able to pay higher interest rates, and do not need
            Government assistance. For example, during this 17-year period, the
            composite equity ratio (net worth as a percent of total assets) of
            all borrowers nearly doubled from 25.3 percent to 50.3 percent, the
            debt-to-asset ratio decreased one-third from 74.7 percent to
            49.7 percent, the long-term debt to equity ratio decreased over
            two-thirds from 234.8 percent to 70.5 percent, and the TIER more
            than doubled from 2.25 to 4.65.

            We found that over half the telephone borrowers had sufficient
            financial strength to repay their loans and/or could obtain or be
            graduated to non-Government lending sources.    Of $4.8 billion in
            loans to 815 RUS direct and guaranteed telephone borrowers as of
            December 31, 1997, we determined that 434 borrowers (53 percent)
            with loans totaling $1.87 billion (39 percent) were in as good or
            better financial condition as 16 telephone borrowers who paid in
            full (PIF) their RUS loans during 1998. These 16 borrowers paid off
            RUS loans totaling over $125 million an average 22.6 years ahead of
            schedule. These 434 borrowers had equity ratios, long-term debt to
            equity ratios, and TIER’s that were equal to or better than the
            average of these financial ratios for the 16 PIF borrowers.

            For example, the equity ratio is a measure of net worth as a percent
            of total assets.     Creditors prefer high equity ratios.        The
            composite equity ratio for all 815 borrowers was 50.3 percent. The
            average equity ratio for the PIF borrowers was 44.5 percent whereas
            the average ratio for the 434 borrowers determined to be in strong
            financial condition was 65 percent.      One commercial lender who
            provided loan funds to rural utility companies stated that it
            required a minimum equity ratio of 20 percent to make a long-term
            loan to a telephone company.     The average equity ratio for the
            434 borrowers in strong financial condition was over three times the
            minimum required by the commercial lender.

            Another measure of financial strength is the long-term debt to
            equity ratio which focuses on how much long-term creditors have




USDA/OIG-A/09016-1-Te                                                   Page ii
                                 FEBRUARY 2000
            invested in the company compared to the owners. The lower the ratio
            the more financially secure the borrower. The composite long-term
            debt to equity ratio for all 815 borrowers was 70.5 percent. The
            average ratio for the PIF borrowers was 111.1 percent while the
            average ratio for the 434 borrowers in strong financial condition
            was 40 percent.

            Still another measurement of financial strength is the TIER which
            indicates the ability of a borrower to cover its interest
            obligations through annual earnings. All other factors being equal,
            the larger the ratio the better the credit risk.      By statute, a
            direct telephone borrower must have a TIER of at least 1 with a
            1.5 TIER needed to qualify for a guaranteed loan. The composite
            TIER for all 815 borrowers was 4.65. The average TIER for the PIF
            borrowers was 3.98 and the average TIER for the 434 borrowers
            identified as being in strong financial condition was 6.27. A major
            commercial lender to rural utility companies stated that it required
            a TIER of at least 1.5 to make a long-term loan. The average TIER
            for the 434 borrowers in strong financial condition was over four
            times the minimum required by the commercial lender.

            In addition, RUS had not deobligated unused loan funds. There were
            no administrative procedures to determine when loan purposes had
            been accomplished, thereby allowing for the deobligation of unused
            funds. We identified 409 loans that were made more than 5 years
            before January 1, 1999, with unused balances totalling almost
            $602.3 million that had not been reviewed for deobligation.

            See exhibit A for a summary of monetary results.

                                      We recommend that RUS work with Congress
  KEY   RECOMMENDATIONS             to  clarify  RUS policy for the telephone
                                    loan program regarding loan graduation
                                    and     requiring    financially    strong
                                    borrowers     to   obtain   credit    from
          non-Government sources.    If Congress determines that RUS should
          require financially strong borrowers to obtain credit from other
          sources and graduate financially strong borrowers to non-Government
          credit sources, we recommend that RUS develop a strategy to require
          borrowers to have been denied commercial credit as a condition for
          RUS financial assistance and establish a graduation program to
          assist financially strong borrowers to refinance their outstanding
          direct loans to other credit sources. In addition, we recommend
          that RUS implement procedures to annually evaluate telephone loans
          and deobligate all unused funds for those loans in which the
          purposes of the loans have been accomplished.

                                      In
                                       his written response to the draft
     AGENCY RESPONSE                report,  the RUS Acting Administrator
                                    stated   that   rather   than   improving
                                    efficiencies, the audit recommendations
                                    are in conflict with the clear intent of
         Congress that rural telecommunications subscribers be afforded the
         same economic, educational, and health care opportunities as urban
         and suburban residents. The Acting Administrator stated that RUS is
         more than a lender, and that participation in the RUS program brings
         with it requirements for enhanced telecommunications standards and
         capacity.

            The Acting Administrator said a mandatory loan graduation process
            would not only hold rural subscribers hostage to inferior
            telecommunications service, it could result in many rural Americans


USDA/OIG-A/09016-1-Te                                                  Page iii
                                 FEBRUARY 2000
            becoming the economic "have-nots" of the 21st century. He stated
            that such a result is contrary to the clear policies established by
            Congress in the Rural Electrification [Loan] Restructuring Act
            (RELRA) of 1993 and the Telecommunications Act of 1996 as well as
            RUS’ annual appropriations language. The Acting Administrator did
            not agree to take action on the audit recommendations. The Acting
            Administrator’s complete response is included in exhibit F.

                                      We   agree that it is the intent of
         OIG POSITION                 Congress  that rural areas are to be
                                      provided the same economic, educational,
                                      and health care opportunities as urban
                                      and suburban residents.    We also agree
           that RUS is more than a lender; nevertheless, the primary function
           of the RUS telephone loan program is to provide financial assistance
           to telephone company borrowers who service rural areas. That being
           the case, RUS must meet the requirements of law established by
           Congress for Government loan programs, which currently requires RUS
           to encourage and assist rural telephone systems to develop their
           resources and ability to achieve the financial strength needed to
           enable them to satisfy their credit needs from their own financial
           organizations and other sources.

            RUS has done an excellent job of assisting telephone borrowers
            achieve the financial strength to satisfy their credit needs from
            their own financial organizations and/or other sources. However,
            RUS has done very little to encourage and assist financially strong
            borrowers to satisfy their credit needs from their own financial
            organizations   and/or   other  sources.      We  identified   over
            400 telephone borrowers with RUS loans totaling over $1.8 billion
            who were in strong financial condition and likely could satisfy
            their credit needs without RUS assistance.

            We disagree that a loan graduation process would hold rural
            subscribers hostage to inferior telecommunications service and
            result in many rural Americans becoming the economic "have-nots" of
            the 21st century. A loan graduation program would only affect those
            borrowers who achieve a strong financial position and, therefore,
            are able to satisfy their credit needs from their own financial
            organizations and/or refinance their RUS loans through other credit
            sources. A graduation program would not affect loan applications
            from borrowers who need RUS financial assistance.

            We continue to believe that RUS should apprise Congress of the
            strong financial condition of telephone company borrowers and to
            work with Congress to determine whether it continues to be
            Congressional intent and policy that financially strong borrowers
            are to be encouraged and assisted to obtain financing from their own
            financial organizations and/or other credit sources. If it is still
            Congressional intent that RUS is to encourage and assist financially
            strong borrowers to meet their credit needs from other sources, RUS
            needs to initiate immediate action to implement this policy.

           We request that RUS reconsider its management decisions for the
           audit recommendations and develop a strategy to work with Congress
           to clarify policy for loan graduation programs and requiring
           financially strong borrowers to obtain credit from other sources.
           OIG’s complete position regarding the Acting Administrator’s
           response and the information needed to reach agreement on the
           management decisions is set forth in the Recommendations sections of
           the report.




USDA/OIG-A/09016-1-Te                                                   Page iv
                                 FEBRUARY 2000
TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . .        i




INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       1

      BACKGROUND   . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   1

      OBJECTIVE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    2

      SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    2

      METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    2



FINDINGS AND RECOMMENDATIONS         . . . . . . . . . . . . . . . . . . . .   3

CHAPTER 1.   FINANCIALLY STRONG BORROWERS CONTINUE TO
             RECEIVE RUS LOANS . . . . . . . . . . . . . . . . . . . . . . .   3

             Recommendations . . . . . . . . . . . . . . . . . . . . . . . . 12

CHAPTER 2.   UNUSED LOAN FUNDS NOT DEOBLIGATED . . . . . . . . . . . . . . . 18

             Recommendations . . . . . . . . . . . . . . . . . . . . . . . . 20


EXHIBITS
             A - SUMMARY OF MONETARY RESULTS . . . . . . . . . . . . . . . . 22

             B - SELECTED RUS BORROWERS THAT PAID LOANS IN FULL IN 1998   . . 23

             C - TELEPHONE LOAN BORROWERS IN STRONG FINANCIAL CONDITION   . . 24

             D - LOAN APPLICATIONS CARRIED OVER TO NEXT FISCAL YEAR
                 DUE TO LACK OF AVAILABLE FUNDING . . . . . . . . . . . . . 40

             E - SUMMARY OF AGED TELEPHONE LOAN OBLIGATIONS   . . . . . . . . 42

             F - RUS WRITTEN RESPONSE TO DRAFT REPORT   . . . . . . . . . . . 43




USDA/OIG-A/09016-1-Te                                                     Page v
                                 FEBRUARY 2000
TABLE OF CONTENTS


ABBREVIATIONS
      CFR      -   Code of Federal Regulations
      CY       -   Calendar Year
      FFB      -   Federal Financing Bank
      FY       -   Fiscal Year
      GAO      -   General Accounting Office
      OIG      -   Office of Inspector General
      PIF      -   Paid in Full
      RE Act   -   Rural Electrification Act
      REA      -   Rural Electrification Administration
      RELRA    -   Rural Electrification Loan Restructuring Act
      RTB      -   Rural Telephone Bank
      RUS      -   Rural Utilities Service
      TIER     -   Times-Interest-Earned Ratio
      USC      -   United States Code
      USDA     -   United States Department of Agriculture




USDA/OIG-A/09016-1-Te                                             Page vi
                                  FEBRUARY 2000
                            INTRODUCTION



                                       The  Rural Electrification Act of 1936
         BACKGROUND                    (RE Act)    established     the    Rural
                                       Electrification Administration (REA) as a
                                       lending agency with responsibility for
                                       developing    a   program    for    rural
electrification. In 1949, the RE Act was amended to authorize REA to make loans
to improve and extend telephone service in rural areas. The Rural Telephone
Bank (RTB) was established by another amendment to the RE Act in 1971. In 1973,
the RE Act was further amended to establish a revolving fund and to provide
authority for REA to guarantee loans made by other legally organized lenders.

The Secretary of Agriculture was required to establish RUS pursuant to
section 232 of the Federal Crop Insurance Reform and Department of Agriculture
Reorganization Act of 1994. That Act established RUS as the successor to REA
with responsibility for administering electric and telephone loan programs.

RUS makes three types of loans:       Hardship, concurrent cost-of-money, and
guaranteed. Hardship loans are direct loans from RUS at 5 percent interest.
Concurrent loans are a combination of RUS direct cost-of-money loans and
RTB loans. The interest rate for cost-of-money loans is equal to the current
cost of money to the Federal Government, but not to exceed 7 percent.         The
interest rates for RTB loans are established by the Governor of RTB in accordance
with Title 7, Code of Federal Regulations (CFR), section 1610.10. The interest
rates for RTB loans are close to the cost of money to the Federal Government.

The Secretary may fully guarantee loans through RTB, National Rural Utilities
Cooperative Finance Corporation, and any other legally organized lending agency
at any rate agreed to by the borrower and lender. Most telephone guaranteed
loans are made by the Federal Financing Bank (FFB).       Guaranteed loans are
typically made at the cost of money to the Treasury plus 1/8 of 1 percent.
Concurrent RUS cost-of-money and RTB loans may be made simultaneously with
hardship loans or guaranteed loans.

During the 3-year period 1995 through 1997, $1.48 billion in long-term telephone
loan financing was approved, including $842 million in RUS direct loans,
$404 million in RTB loans, and $233 million in guaranteed loans.          As of
December 1997, there were 864 active telephone company borrowers of which 815
reported financial information to RUS.




USDA/OIG-A/09016-1-Te                                                     Page 1
                                 FEBRUARY 2000
                                      Our  audit objective was to determine
           OBJECTIVE                  whether RUS continues to make and service
                                      loans to telephone company borrowers who
                                      could obtain financing from other credit
                                      sources.

                                      At    the   RUS   National   Office   in
              SCOPE                   Washington, D.C., we obtained background
                                      information on laws and regulations
                                      governing telephone loans and reviewed
                                      policies and procedures for making and
            servicing loans.      We reviewed the RE Act amendments and
            Congressional policy regarding the telephone loan program and
            borrowers in strong financial condition.

            We reviewed statistical information and evaluated trends from 1981
            through 1997, the latest date for which statistical information was
            available.    We also determined average financial ratios for
            16 borrowers who satisfied their credit needs from their own or
            other sources by paying off their RUS loans several years early in
            1998. We compared these average ratios to the financial ratios of
            all 815 telephone borrowers that provided financial information to
            RUS for calendar year (CY) 1997 to identify RUS telephone borrowers
            who were in strong financial condition as of December 31, 1997. We
            also compared the results of our analysis with a January 1998
            U.S. General Accounting Office (GAO) report which addressed RUS
            loans to financially healthy borrowers.

            We contacted the National Rural Utilities Cooperative Finance
            Corporation (NRUCFC) in Herdon, Virginia, and the Farm Credit System
            CoBank in Englewood, Colorado, and obtained financial ratios that
            these commercial lenders require in order to make loans to telephone
            companies.

            This audit was conducted in accordance with the Government Auditing
            Standards issued by the Comptroller General of the United States.
            Accordingly, the audit included such tests of program and accounting
            records as considered necessary to meet the audit objectives.

                                      Atthe RUS National Office, we reviewed
        METHODOLOGY                 laws,  rules, regulations, and staff
                                    instructions governing telephone loans;
                                    interviewed   responsible   staff;   and
                                    reviewed telephone loan applications and
          loan documents.   In addition, we reviewed GAO reports covering
          telephone loans (GAO/RCED-97-82, Rural Development, Financial
          Condition of the Rural Utilities Service’s Loan Portfolio, issued
          April 1997;   and   GAO/RCED-98-42,   Rural   Utilities   Service,
          Opportunities to Operate Electricity and Telecommunications Loan
          Programs More Effectively, issued January 1998). We also reviewed
          and evaluated financial trends as shown in composite statistics of
          the agency’s loan portfolio for the 17-year period 1981 through
          1997.

            We sent letters to NRUCFC and CoBank to request information
            regarding their financial requirements for making loans to telephone
            company borrowers. We used the written responses to compare their
            financial requirements to the borrowers we identified that were in
            strong financial condition.




USDA/OIG-A/09016-1-Te                                                    Page 2
                                 FEBRUARY 2000
               FINDINGS AND RECOMMENDATIONS



  CHAPTER 1.              FINANCIALLY STRONG BORROWERS CONTINUE TO
                          RECEIVE RUS LOANS


                                                RUS
                                               loan making and servicing policies
              FINDING NO. 1               have led to the substantial improvement
                                          in the financial condition of telephone
                                          program   borrowers.     However,   these
                                          policies have not led to making loans
                                          only to borrowers who need Federal
               assistance or to moving financially strong borrowers to other credit
               sources.   The U.S. General Accounting Office (GAO) reported in
               January 1998 that RUS made loans to borrowers that may not need
               Federal assistance. During this review, we found this was still
               true. We identified 434 RUS telephone program borrowers with RUS
               loan balances totaling $1.87 billion that appear to be in good
               enough financial condition to satisfy their credit needs from their
               own financial organizations and/or other credit sources.

               Title 7 United States Code (USC) 9301 states that it is the policy
               of Congress that adequate funds be made available to rural telephone
               systems through direct, insured, and guaranteed loans at interest
               rates which will allow them to achieve the objectives of the RE Act
               of 1936. In addition, rural telephone systems are to be encouraged
               and assisted to develop their resources and ability to achieve the
               financial strength needed to enable them to satisfy their credit
               needs from their own financial organizations and other sources.

               GAO DETERMINES TELEPHONE PROGRAM COULD BE MORE COST EFFECTIVE
               In January 1998, the GAO reported to the U.S. Senate Committee on
               Agriculture, Nutrition, and Forestry2 a number of options that the
               Congress could consider to make the RUS telephone loan program more
               effective and less costly. The GAO reported, in part, that loans
               are made to financially healthy borrowers that may not need RUS’
               assistance and that a graduation program could assist in moving
               financially healthy borrowers to commercial credit.




     1
      Title 7 USC 930, Congressional Declaration of Policy, dated May 11, 1973.

     2
       GAO Report No. GAO/RECD-98-42, Rural Utilities Service - Opportunities to Operate Electricity
and Telecommunications Loan Programs More Effectively, issued January 1998.



USDA/OIG-A/09016-1-Te                                                                       Page 3
                                         FEBRUARY 2000
            Loans Made to Financially Strong Borrowers

            The GAO reported that unlike the requirements for other USDA rural
            credit programs -- such as the water and waste disposal, farm,
            single-family housing, and community facilities loan programs -- the
            RE Act does not require loan applicants to demonstrate that they
            cannot obtain credit from other lenders before applying for a RUS
            loan.   Also, the RE Act does not preclude financially healthy
            borrowers from receiving RUS loans. As a result, RUS’ loans are
            sometimes made to financially healthy borrowers that may not need
            Federal assistance to fund their utility projects.

            GAO reported that many telephone borrowers that obtained loans
            during calendar years CY 1994 through June 30, 1997, had favorable
            financial characteristics. Specifically, about 24 percent of the
            borrowers had equity (net worth; i.e., total assets less total
            liabilities) of $10 million or more at the end of the year prior to
            receiving the loans, and another 65 percent had equity of between
            $1 million and $10 million. In addition, about 29 percent of the
            borrowers made a profit (net income) of $1 million or more in the
            year prior to receiving the loans, and another 61 percent made a
            profit of between $100,000 and $1 million.       Furthermore, about
            80 percent of the borrowers had a current ratio (a measure of the
            extent to which a borrower has sufficient current assets to cover it
            current liabilities) of 2 or more times; 83 percent had a
            debt-to-asset ratio (the extent to which a borrower has sufficient
            assets to cover all of its debt) of 70 percent or less; and
            87 percent had a times-interest-earned ratio (TIER; the extent to
            which a borrower can pay its annual interest expenses from its net
            income) of 2 or more.

            GAO reported that RUS incurs a considerable expense in providing
            direct loans to financially healthy borrowers. The principle cost
            is associated with the interest rate subsidies (the interest costs
            associated with loans made at rates below the rate at which RUS
            borrows from the Department of the Treasury). GAO stated that RUS’
            estimated total subsidy costs (not including its administrative
            costs) on direct telephone loans made during fiscal years (FY) 1994
            through 1996 totaled $29 million for hardship loans and $0.1 million
            for cost-of-money loans.

            Loan Graduation Procedure Needed

            The GAO reported that the RE Act does not require RUS to attempt to
            move financially healthy borrowers to commercial credit sources.
            Under a graduation procedure, a borrower or RUS could submit
            financial information to other lenders to see if they would
            refinance the borrower’s outstanding direct loans.     RUS had not
            instituted a graduation procedure because the RE Act is silent on
            this issue.

            GAO reported that because graduation is not an integral part of
            RUS’s operation, some borrowers may have direct loans longer than
            needed and are therefore able to take advantage of the favorable
            terms that exist with such programs.        RUS continues to incur
            interest and other administrative expenses in servicing the accounts
            of its financially healthy borrowers. GAO found that many borrowers
            with outstanding direct loans as of December 31, 1996, had favorable
            financial characteristics indicating that they may be viable
            candidates for having the commercial sector refinance their RUS
            debt.




USDA/OIG-A/09016-1-Te                                                    Page 4
                                 FEBRUARY 2000
              GAO Conclusions

              The GAO concluded that Congress could make the telephone loan
              program more effective and less costly by making financial tests a
              part of the eligibility criteria for direct loans and requiring
              borrowers to seek commercial credit as a condition for RUS
              assistance. GAO also concluded that to assist in moving financially
              healthy direct loan borrowers to the commercial sector, Congress
              could have RUS establish a graduation program to require borrowers
              to attempt to have their outstanding direct loans refinanced by
              commercial credit sources.

              The agency disagreed with GAO’s conclusions that many RUS borrowers
              may not need Federal assistance and that a graduation program was
              needed to move borrowers to commercial credit.

              CONGRESSIONAL POLICY RESULTED IN IMPROVED FINANCIAL CONDITION OF
              TELEPHONE COMPANY BORROWERS
              The fact that telephone companies have been getting financially
              stronger has not had the effect of moving them to commercial credit
              sources. The requirement to assist borrowers to achieve financial
              ability to satisfy their credit needs from their own organizations
              and/or other sources (7 USC 930) implies that this policy would
              apply to new loans and to graduation of existing borrowers’ loans to
              other credit sources when Government assistance is no longer needed.

              RUS officials said it was the intent of Congress that they use all
              of their loan funds; therefore, they make loans to telephone
              companies that meet established criteria (i.e., projected TIER of 1,
              serves a rural area, and/or had a previous RUS loan) because they
              have no discretion to do otherwise.      RUS’ annual appropriation
              budget is based on anticipated loan requests from all applicants
              regardless of financial condition. During the last three fiscal
              years, RUS was appropriated over $500 million per year for the
              telephone loan program.

              RUS does not have discretion to refuse a loan because a borrower is
              in strong financial condition. Title 7 USC 9273 prohibits RUS from
              denying a loan for any reason other than that based on a properly
              enacted administrative rule. There was no administrative rule for
              denying a loan based on a borrower’s financial strength.      Also,
              Title 7 USC 9284 states that a loan application must be processed
              within 90 days.

              While 7 USC 930 states that telephone program borrowers are to be
              encouraged and assisted to achieve the financial strength to satisfy
              their credit needs from other sources, the RE Act is silent
              regarding loan graduation and RUS did not have a graduation program
              to move financially strong borrowers to other credit sources.




    3
     Title 7 USC 927, General Duties and Prohibitions, dated October 13, 1994.

    4
     Title 7 USC 928, Prompt Processing of Telephone Loans, dated October 13, 1994.



USDA/OIG-A/09016-1-Te                                                                 Page 5
                                        FEBRUARY 2000
            TREND ANALYSIS SHOWS STEADY IMPROVEMENT IN FINANCIAL CONDITION
            We performed a trend analysis of key financial ratios on the
            composite RUS telephone loan portfolio for the 17-year period of
            calendar years 1981 through 1997. This information was taken from
            the annual statistical reports for rural telecommunications
            borrowers. There are four financial ratios that have traditionally
            been used to measure the solvency and stability of companies. They
            provide evidence of the ability of a company to meet its financial
            obligations. These ratios are of great interest to banks and other
            lenders since they indicate the level of safety or risk of a loan.
            The ratios are:    Equity ratio (net worth as a percent of total
            assets), debt ratio (total liabilities as a percent of assets), debt
            to    equity    ratio    (long-term    debt    to    equity),    and
            times-interest-earned ratio (TIER, total net income and interest
            divided by interest on debt).

            The equity ratio (also
            referred to as net worth
            as a percent of total
            assets) is the ratio of
            total owners’ equity, or
            membership shares of a
            cooperative,    to   total
            assets.    It shows the
            proportion of the total
            assets contributed by the
            owners of the entity.
            This ratio is of interest
            to lenders because in the
            event     of     business
            decline, their interests
            are better protected and
            there   is    less   risk.
            Creditors    prefer   high
            equity ratios.      During
            the period 1981 through 1997, the average equity ratio of all
            borrowers nearly doubled from 25.3 percent to 50.3 percent.

            The debt ratio is the
            ratio         of     total
            liabilities      to    total
            assets.      It shows the
            extent      to    which    a
            borrower has sufficient
            assets to cover its debts
            and    all     liabilities.
            Creditors prefer low debt
            ratios because the lower
            the ratio, the greater
            the     cushion      against
            creditors’ losses in the
            event     of   liquidation.
            The debt ratio is the
            mathematical      complement
            of    the    equity    ratio
            (i.e., debt     ratio plus
            equity         ratio       =
            100 percent). During the period 1981 through 1997, the average debt
            ratio of all borrowers decreased one-third from 74.7 percent to
            49.7 percent.




USDA/OIG-A/09016-1-Te                                                    Page 6
                                 FEBRUARY 2000
            The debt to equity ratio
            is   used    to    compare
            long-term debt          to
            shareholder’s equity, or
            net worth. It focuses on
            how much the long-term
            creditors have invested
            in    the    company    as
            compared to the owners.
            The lower the ratio the
            more financially secure
            the enterprise.       This
            occurs because the debt
            is senior to the equity
            and interest must be paid
            before any dividends. In
            the     event      of    a
            liquidation,     principal
            and interest of the debt
            must be paid before any cash remaining can be paid to the equity
            holders. During the period 1981 through 1997, the average debt to
            equity ratio for all borrowers decreased over two-thirds from
            234.8 percent to 70.5 percent.


            The TIER is sometimes
            called     the    interest
            coverage ratio. It is an
            indicator of the ability
            of a firm to cover its
            interest      obligations
            through annual earnings.
            As such, it is used by
            creditors as a measure of
            the safety of a loan.
            The larger the ratio, the
            better the credit risk.
            By statute, a telephone
            borrower must have a TIER
            of   at   least   1.0   to
            qualify for a hardship or
            concurrent loan, and a
            TIER of 1.5 to qualify
            for a guaranteed loan.
            In 1981, the composite TIER was 2.25, which was 125 percent greater
            than the statutory minimum of 1.0 ((2.25-1.0)/1.0 = 125 percent).
            In 1997, the composite TIER was 4.65, which is 365 percent greater
            than the statutory minimum ((4.65-1.0)/1.0 = 365 percent). During
            the period 1981 through 1997, the average TIER for all borrowers
            more than doubled from 2.25 to 4.65.

            These 17-year trends show that many RUS borrowers are financially
            strong, able to pay higher interest rates, and do not need
            Government assistance.




USDA/OIG-A/09016-1-Te                                                   Page 7
                                FEBRUARY 2000
            HALF OF RUS BORROWERS IN STRONG FINANCIAL CONDITION
            To identify telephone loan program borrowers who were in strong
            financial condition (i.e., borrowers who could reasonably be
            expected to obtain financing from their own and/or other
            non-Government sources), we evaluated key financial ratios of
            borrowers who paid off their RUS loans in 1998. The ratios reviewed
            were net worth to total assets (equity ratio), total liabilities to
            total assets (debt ratio), long-term debt to equity, and TIER. We
            obtained a list of the borrowers who paid off their telephone loans
            several years early in 1998 and determined average financial ratios
            for these borrowers that were able to satisfy their credit needs
            from their own or other resources.

            RUS personnel identified 23 borrowers that paid off their RUS, RTB,
            and/or FFB loans in 1998.        We determined that 19 of these
            23 borrowers reported full financial information in the 1997
            Statistical Report of Rural Telecommunications Borrowers (referred
            to hereafter as the 1997 statistical report). Of the 19 borrowers
            who paid in full (PIF) their RUS loans in 1998, 3 borrowers (KS 580,
            MN 541, and TX 637) had a TIER greater than 10 (10.3, 17.9, and
            29.4, respectively).     In other words, the earnings for these
            3 borrowers was more than 10 times their interest expense. The TIER
            for these 3 borrowers was more than twice the composite TIER of 4.65
            for all telephone borrowers.

            Net worth to total assets for these 3 borrowers was very high (74.1,
            82.1, and 76.0 percent, respectively) compared to the composite
            50.3 percent for all borrowers. Long-term debt to equity was very
            low (23.9, 17.8, and 24.4 percent, respectively) compared to the
            composite 70.5 percent for all borrowers.

            We concluded that these 3 borrowers were in much better financial
            condition than the average/typical telephone borrower. Therefore,
            we eliminated these 3 borrowers from the 19 borrowers who reported
            financial information to RUS for CY 1997 since the inclusion of
            their data would skew the average financial ratios for the more
            typical borrowers.

            We   analyzed   the    financial   condition    of   the   remaining
            16 PIF borrowers and determined the average of key financial ratios
            that show solvency and stability of a company:       Net worth as a
            percentage of total assets, long-term debt to equity, and TIER.
            These 16 PIF borrowers paid off their loans several years early.
            The time span between the PIF date and the date that the notes were
            due ranged from 7.4 years to 31.5 years, with an average of
            22.6 years.   The payoff amounts ranged from $241,268 to almost
            $63 million and averaged $7.8 million. These 16 borrowers either
            satisfied their credit needs from their own financial organizations
            and/or other lenders.    The reasons these borrowers paid off the
            loans were not available; however, the fact that they did pay off
            their loans demonstrated the financial ability to pay off and/or
            refinance the loans. The average TIER for the 16 PIF borrowers was
            3.98 and the average net worth to total assets was 44.5 percent
            while the average long-term debt to equity was 111.1 percent. These
            averages (which were less than the composite for all 815 borrowers)
            represent an estimate of borrowers in good financial condition. The
            16 PIF borrowers and their financial ratios are summarized in
            exhibit B.




USDA/OIG-A/09016-1-Te                                                    Page 8
                                 FEBRUARY 2000
           We   then  compared   the   average   financial   ratios   for   the
           16 PIF borrowers to the universe of 815 borrowers reported in the
           loan, operating, and financial statistics section of the 1997
           statistical report.     We reviewed all 815 borrowers’ financial
           information in the 1997 statistical report. We selected only those
           borrowers with ratios that were equal to or greater than the average
           TIER and net worth to total assets ratio and equal to or less than
           the average long-term debt-to-equity ratio of the 1998 PIF
           borrowers.   In other words, we selected only those borrowers in
           which all three financial ratios (TIER, net worth to total assets,
           and long-term debt to equity) were equal to or better than the
           average of the PIF borrowers. Of the universe of 815 borrowers,
           434 (53 percent) had better financial ratios than the PIF borrowers.
           The 434 borrowers and their key financial ratios are shown in
           exhibit C. A comparison of the RUS debts of the 434 borrowers with
           the universe of 815 borrowers is summarized in the table below.

                           Estimates of Borrowers That Could Obtain
                                  Financing From Other Sources
                                         as of 12/31/97
                                 (Dollar Amounts in Thousands)


                                                      (2)
                                      (1)          BORROWERS
                                      RUS         CAPABLE OF         (3)
                                  BORROWERS        OBTAINING     COLUMN 2 AS
                                REPORTING IN         OTHER      A PERCENTAGE
                                     1997          FINANCING     OF COLUMN 1

                NUMBER OF
                BORROWERS                815              434           53.3
                RUS DEBT          $3,140,594       $1,193,234           38.0
                RTB DEBT           1,359,233          595,514           43.8
                FFB DEBT             314,931           85,829           27.3

                TOTAL
                RUS/RTB/FFB
                DEBT              $4,814,758       $1,874,577           38.9


            Of the 434 borrowers identified, 173 (39.9 percent) had a TIER
            greater than or equal to 10.         The average TIER for these
            173 borrowers was 95.37. Of the remaining 261 borrowers that had a
            TIER of less than 10, the average TIER was 6.27 (which is over
            4 times the level necessary to qualify for a guaranteed loan). The
            key financial ratios of the 16 PIF borrowers and the 434 borrowers
            is summarized in the table below.




USDA/OIG-A/09016-1-Te                                                          Page 9
                                  FEBRUARY 2000
                                    Financial Characteristics of the
                                   16 PIF Borrowers and 434 Borrowers
                                      With Better Financial Ratios
                                             as of 12/31/97


                       FINANCIAL        COMPOSITE
                       INDICATORS        FOR ALL        AVERAGE    AVERAGE OF
                       AS OF               815         OF 16 PIF       434
                       12/31/97         BORROWERS      BORROWERS    BORROWERS
                       TIER                4.65            3.98      6.275
                       NET WORTH
                       TO TOTAL
                       ASSETS              50.3%         44.50%      65.00%
                       LONG-TERM
                       DEBT TO
                       EQUITY              70.5%        111.10%      40.00%


              We concluded that these 434 borrowers who had combined RUS/RTB/FFB
              debts of $1.87 billion could likely satisfy their credit needs from
              their own financial organizations and/or other credit sources.

              OTHER COMMERCIAL LENDERS
              We contacted two commercial lenders (National Rural Utilities
              Cooperative Finance Corporation (NRUCFC) and Farm Credit System
              CoBank (CoBank)) who provide loans to electric and telephone
              companies. We requested NRUCFC and CoBank to identify the minimum
              acceptable equity ratio, debt to equity ratio, TIER, and/or other
              key financial ratios that telephone borrowers must have in order to
              obtain long-term loans from them.

              NRUCFC informed us that in addition to evaluating financial ratios,
              it also considers the borrower’s competitive position, quality of
              management, plant condition, and various other non-quantifiable
              features of the borrower’s operation.     NRUCFC stated that for a
              borrower to obtain a long-term loan, the company must be able to
              demonstrate the ability to achieve and maintain an annual debt
              service coverage ratio of 1.25:1 and an annual TIER of 1.5. We did
              not have the necessary data to compute the debt service coverage for
              the 434 borrowers we identified as being in strong financial
              condition; however, we determined the TIER for these 434 borrowers
              was 6.27 (see above table) which was over four times the TIER
              required by NRUCFC.

              CoBank also informed us that there were a number of factors it
              considers in making loans in addition to financial ratios; however,
              it was CoBank’s preference that telephone companies meet or exceed
              the following ratios:

                o Debt service coverage (minimum) - 1.25:1
                o Total debt to operating cash flow (maximum) - 6.0:1
                o Equity to assets (minimum) - 20 percent




    5
     Average of the 261 borrowers who had a TIER less than 10.



USDA/OIG-A/09016-1-Te                                                           Page 10
                                        FEBRUARY 2000
            We did not have the data to compute the debt service coverage for
            the 434 borrowers identified as being in strong financial condition;
            however, we determined the equity ratio for these 434 borrowers was
            65 percent (see above table) which was more than three times greater
            than the CoBank minimum.     In addition, the data available was
            sufficient to compute total debt to operating cash flow. To test
            this ratio against the 434 borrowers we identified as being in
            strong financial condition, we computed the total debt to operating
            cash flow for a random sample of 44 of these 434 borrowers and found
            that all 44 borrowers had a debt to operating cash flow ratio of
            less than 6.0:1. The ratios for the random sample of 44 borrowers
            ranged from 0.42:1 to 5.93:1 and averaged 2.55:1.

            Therefore, it is likely that all 434 borrowers that we determined
            were in strong financial condition also substantially exceeded the
            financial ratios required by NRUCFC and CoBank.

            LOAN APPLICATIONS CARRIED OVER TO THE NEXT FISCAL YEAR
            RUS provided information regarding borrowers whose loan requests
            were not met because loan funds had been obligated to other
            borrowers. RUS data showed that loan applications totaling over
            $198 million from 26 borrowers since fiscal year (FY) 1995 were
            carried over to the next fiscal year due to lack of available
            funding during the fiscal year in which the loan applications were
            received (2 borrowers were carried over two fiscal years).
            Exhibit D shows the loan applications carried over to the next
            fiscal year due to lack of available funding.

            RUS also provided information regarding the number and amount of
            loans made since FY 1995.     RUS data showed that 198 borrowers
            received hardship, cost of money, and/or RTB loans totaling over
            $1.9 billion during FY’s 1995 through FY 1999 as of August 31, 1999
            (11 borrowers received loans in two fiscal years).

            We compared RUS’ list of 198 borrowers who received loans since
            FY 1995 to the list of borrowers we identified as being in strong
            financial condition as of December 31, 1997 (exhibit C), and found
            that 61 borrowers (5 borrowers received loans in two fiscal years)
            who received loans totaling $707.1 million were included in our list
            of financially strong borrowers (includes $70.8 million hardship,
            $400.6 million cost of money, and $235.7 million RTB).

            We concluded that some borrowers were required to wait for the
            subsequent fiscal year’s funding because loan funds had been
            obligated to borrowers who were in strong financial condition. Of
            the 26 borrowers in exhibit D that had to wait until the next fiscal
            year for funding, 20 were not included in exhibit C as borrowers in
            strong financial condition. These 20 borrowers were denied funding
            while other financially stronger borrowers were approved for loans.




USDA/OIG-A/09016-1-Te                                                   Page 11
                                 FEBRUARY 2000
     RECOMMENDATION NO. 1

                                    Work with Congress to clarify RUS policy
            for the telephone loan program regarding loan graduation and
            requiring financially strong borrowers to obtain credit from
            commercial sources.


     RECOMMENDATION NO. 2

                                       If Congress determines that RUS should
            graduate financially strong borrowers to commercial credit sources
            and require financially strong borrowers to obtain credit from other
            sources, RUS should develop a strategy to:

            o   Submit annual appropriation requests for telephone program loan
                funds based on anticipated assistance to borrowers who are unable
                to finance their credit needs internally or from non-Government
                sources.

            o   Require borrowers to have been denied commercial credit as a
                condition for RUS financial assistance.

            o   Establish a graduation program to assist financially strong
                borrowers to refinance their outstanding direct loans to other
                credit sources.

            o   Evaluate the financial condition of all borrowers and require
                those borrowers in strong financial condition to graduate their
                outstanding direct loan balances to other credit sources
                (including the borrowers cited in exhibit C with loans totaling
                $1.87 billion).

            RUS Response
            In his January 24, 2000, written response to the draft report, a
            copy of which is included in exhibit F, the RUS Acting Administrator
            disagreed with Recommendation No. 1. The following is a summary of
            the Acting Administrator’s response to Recommendation No. 1:

            o   It is inappropriate and unnecessary for RUS to lobby Congress for
                support of program funding or commercial graduation. Congress
                has not permitted the telecommunications program to operate in a
                vacuum; rather it has ensured that RUS-financed systems provide
                state-of-the-art telecommunications services thereby enabling
                rural subscribers the same economic, educational, and health care
                opportunities as urban and suburban residents.

            o   Congress reaffirmed its commitment to the role of the
                telecommunications program by increasing funding for the Rural
                Telephone Bank (RTB) from the $157 million proposed in the
                President’s FY 2000 budget to $175 million.         This support
                demonstrates that Congress is aware of the need for RUS financing
                in rural areas and the value of RUS loan program participation
                and does not consider loan graduation prudent in today’s
                telecommunications industry.




USDA/OIG-A/09016-1-Te                                                    Page 12
                                  FEBRUARY 2000
            o   Congress reinforced RUS’ role for telecommunications through the
                passage of the Rural Electrification Loan Restructuring Act
                (RELRA) of 1993 which reinforced the objective of the RE Act to
                fully utilize appropriated funds to provide modern, affordable
                telecommunications service in rural areas. The RELRA mandated
                new service standards for RUS borrowers and strengthened RUS’
                authority to utilize all funding available to it for the benefit
                of rural America.    RELRA not only includes requirements for
                borrower   financial   strength,   but  also   focuses   on   the
                characteristics of the rural areas in which RUS loan funds will
                be directed, and the types of service that will be required to be
                provided to these areas.

            o   The RELRA also mandated that cost-of-money loans be made
                concurrently with RTB loans. Had Congress intended for borrowers
                to seek concurrent or supplemental funding from non-Government
                sources, it would have amended RELRA accordingly.        Rather,
                Congress specifically identified the RTB as the appropriate
                supplemental lender. Per Section 305(d) of the RE Act, Congress
                is more concerned with the characteristics of the rural areas
                served by RUS borrowers and the types of services provided in
                those areas than the financial strength of the RUS borrowers
                themselves.

            o   Telecommunications parity between rural and urban America is at
                a greater risk today than any other time in this nation’s
                history. The "lockout" of borrowers through a graduation process
                would only be detrimental to the Congressionally mandated
                national    telecommunications    policy    framework.        The
                Telecommunications Act of 1996 deregulated local telephone
                service and created a competitive marketplace.       Such change
                promises   to   bring   new   carriers   into   the    profitable
                telecommunications markets including America’s cities and larger
                towns, with the intended result of competitive pricing and
                innovation. However, rural areas are not likely to benefit from
                such competition and local exchange carriers will be left to cope
                with rising per-customer costs and decreasing per-customer
                revenues.

            o   Further complicating the deregulation transition is the
                Telecommunications Act requirement for Federal and State
                regulators to reform the decades old revenue sharing mechanisms.
                The Federal Communications Commission also made a change in the
                universal service mechanism for large local exchange carriers.

            o   The chasm between those "on-line" and those "off-line" still
                persists and, for rural areas, is even wider and more difficult
                to overcome when considering the additional barriers of time and
                distance.   Rural citizens are among the least connected to
                telephone and computer access services and many rural areas have
                no service at all. The lower population density of America’s
                rural areas almost automatically creates a disincentive for
                companies to make investments in telecommunications.

            o   The analysis of financial strength presented in the OIG report is
                misleading. On the whole, RUS telecommunications borrowers enjoy
                a relatively stable financial condition. As noted in the audit
                report, the average TIER and equity ratios are good. However,
                the nature of the telecommunications industry is rapidly
                changing, both from a technological standpoint and an operational
                standpoint. New investment for new technologies and services is
                required at an increasing rate and private capital providers will



USDA/OIG-A/09016-1-Te                                                    Page 13
                                  FEBRUARY 2000
                seek the most secure investment opportunities in urban and
                suburban areas, leaving rural areas behind. RUS financing is an
                important component of the universal service equation and
                provides the capital necessary to ensure that rural areas receive
                the same service offerings as their urban counterparts.

            o   The information provided in the report is misleading as to the
                strength of RUS’ borrowers and their ability to raise capital
                from private lenders.     It is important to note that TIER
                requirements for obtaining new financing are based on projected
                financial performance that includes both the new debt and
                interest expense, not on current financial performance.     The
                128 borrowers that received loans during FY’s 1997, 1998, and
                1999 had an average projected TIER of 1.91 and a median TIER of
                1.67. Nearly 44 percent had projected TIER’s of less than 1.5
                and 81 percent had projected TIER’s less than 2.5.

            o   RUS is a rural economic development stimulator that utilizes
                attractive financing as a tool to encourage rural utilities to
                build modern telecommunications plant and provide high quality
                service to all who work or reside within their assigned
                territories.   The primary objective of the telecommunications
                program is to ensure that rural subscribers have modern, reliable
                utility service so that they can work, learn, and live like their
                urban and suburban counterparts. The very success of the RUS
                program is built, in part, on the financial stability of its
                borrowers.       In   50 years   of   RUS    service,   not   one
                telecommunications borrower has defaulted on a loan.

            Regarding Recommendation No. 2, the Acting Administrator’s written
            response stated that through the enactment of the RELRA and the
            Telecommunications Act of 1996 and through continued appropriation
            funding support, Congress has demonstrated that it is not its intent
            to require financially strong borrowers to obtain credit from other
            sources. To do so would be contrary to the purpose and operation of
            RELRA; therefore, it is unnecessary to develop the strategy detailed
            in Recommendation No. 2.

            OIG Position
            The audit report does not suggest that RUS conduct illegal lobbying
            activities to obtain Congressional support for program funding or
            graduation of borrowers to other credit sources.       Congress has
            already determined that RUS is to encourage and assist rural
            telephone systems to develop their resources and ability to achieve
            the financial strength needed to enable them to satisfy their credit
            needs from their own financial organizations and other sources
            (Title 7 USC 930).    This report recommends that RUS work with
            Congress to clarify policy for the telephone loan program regarding
            graduating loans to other credit sources and requiring financially
            strong borrowers to meet their credit needs from their own
            organizations and/or other sources. As pointed out in this report,
            RUS has done an excellent job of assisting telephone borrowers
            achieve financial strength. During the 17-year period 1981 through
            1997, the average TIER for all telephone borrowers more than doubled
            from 2.25 to 4.65; net worth as a percent of total assets nearly
            doubled from 25.3 percent to 50.3 percent; and debt to equity
            decreased over two-thirds from 234.8 percent to 70.5 percent.

            However, RUS has done very little to encourage and assist
            financially strong borrowers to satisfy their credit needs from
            their own financial organizations and other sources. We identified
            over 400 telephone borrowers with RUS loans totaling over



USDA/OIG-A/09016-1-Te                                                    Page 14
                                  FEBRUARY 2000
            $1.8 billion who were in strong financial condition and likely could
            satisfy their credit needs from their own financial organizations
            and/or other sources.     For RUS to provide such information to
            Congress is not lobbying; rather, it is keeping Congress informed of
            the telephone program’s success in assisting borrower’s achieve
            financial strength and obtaining Congressional guidance in meeting
            the intent of law to encourage and assist financially strong
            telephone borrowers to satisfy their credit needs from their own
            financial organizations and/or other sources.

            The fact that Congress increased funding for RTB and/or RUS loans
            does not necessarily mean that Congress does not consider loan
            graduation prudent in the telecommunications industry or that
            financially strong borrowers should not be assisted to meet their
            credit needs from other sources. This report does not state nor
            imply that there is no need for RUS financing in rural areas.
            However, the report illustrates that there are a significant number
            of borrowers (over 50 percent) who likely could finance their
            proposed credit needs from their own financial organizations and/or
            other sources.

            The Acting Administrator also stated that Congress has demonstrated
            through the enactment of the RELRA and the Telecommunications Act of
            1996 and continued appropriated funding support for RUS programs
            that it is not its intent to require financially strong borrowers to
            obtain credit from other sources.     We do not believe that these
            actions by Congress eliminated the Congressional mandate in Title 7
            USC 930 which requires RUS to encourage and assist rural telephone
            systems to develop their resources and ability to achieve the
            financial strength needed to enable them to satisfy their credit
            needs from their own financial organizations and other sources.
            Rather than risk a misunderstanding of Congressional intent of
            continued funding of RUS programs, we believe RUS should
            specifically determine whether or not Congress intends for RUS to
            encourage and assist rural telephone systems to develop their
            resources and ability to achieve the financial strength needed to
            enable them to satisfy their credit needs from their own financial
            organizations and other sources.

            The agency response stated that it is the objective of the RE Act to
            fully utilize appropriated funds to provide telecommunications
            service to rural areas. Telephone borrowers who serve rural areas
            and do not benefit from the competitive market place and revised
            revenue sharing as a result of the Telecommunications Act of 1996
            may need RUS financial assistance to provide affordable service to
            rural areas. However, as noted in the audit report, RUS’ annual
            appropriation budget request is based on anticipated loan requests
            from all applicants regardless of financial condition.        If RUS
            submitted appropriation requests based on anticipated financial
            needs of borrowers who need RUS assistance, the agency could not
            only reduce spending millions of tax dollars for telephone companies
            who do not need Government assistance, but also develop a
            needs-based budget request.

            The response also stated that Congress is more concerned with the
            characteristics of rural areas and the services provided to those
            areas than financial strength of borrowers. The response emphasized
            that RUS provides financial assistance to borrowers who service
            rural areas. In the initial RE Act, a borrower could not obtain a
            loan if the service area included a city or populated area greater
            than 1,500. In 1993, the maximum population level was increased to
            5,000. However, RUS applies this population restriction only to the
            initial loan. Population is not considered for subsequent loans to



USDA/OIG-A/09016-1-Te                                                   Page 15
                                 FEBRUARY 2000
            borrowers.   This is popularly known as the "once rural, always
            rural" rule. The RE Act, as amended, does not explicitly have this
            provision. Title 7 USC 930 states that it is the policy of Congress
            that adequate funds should be made available to "rural" telephone
            systems.    Thus, RUS continues to provide loans to telephone
            companies who are not only in strong financial condition, but who
            service areas that currently exceed the maximum population of 5,000.

            For example, the initial loan for borrower AZ 506, headquartered in
            Kingman, Arizona, was made in 1964. At that time, the service area
            for AZ 506 did not contain populated areas greater than 1,500. In
            1998, AZ 506 obtained a $41 million loan.       By this time, the
            populations of Bullhead City and Lake Havasu, which are in AZ 506’s
            service area, were estimated to be 27,370 and 37,580, respectively,
            when the borrower’s loan design was prepared in 1996. Therefore,
            the populations of these two areas were estimated to be 447 percent
            and 652 percent greater than the applicable population limit of
            5,000.

            In addition, the fact that Congress mandated in the RELRA that
            cost-of-money loans be made concurrently with RTB loans does not
            necessarily mean that Congress does not intend for financially
            strong borrowers to seek funding from other sources. Although the
            RELRA and RE Act outline the characteristics of rural areas serviced
            by RUS borrowers, the acts do not override the requirement of
            Title 7 USC 930 to encourage and assist rural telephone systems to
            develop their resources and ability to achieve the financial
            strength needed to enable them to satisfy their credit needs from
            their own financial organizations and other sources.

            We also disagree that a loan graduation program would "lockout"
            borrowers from RUS financial assistance and be detrimental to the
            national telecommunications policy.    Loan graduation would only
            affect borrowers who achieve a strong financial position and,
            therefore, are able to satisfy their credit needs from their own
            financial organizations and/or refinance their RUS loans through
            other credit sources. A loan graduation program would not affect
            loan applications from borrowers who need RUS financial assistance.

            The OIG analysis of financial strength of borrowers presented in the
            report illustrates that over half of the telephone borrowers are in
            strong financial condition. Although new financing may be based, in
            part, on projected financial performance, current financial
            performance is a key indicator of a borrower’s future performance
            and its ability to repay a new loan. A borrower’s current financial
            condition has a direct relationship on the borrower’s ability to
            obtain financing from other credit sources. The response stated
            that 128 borrowers who received loans during FY’s 1997, 1998, and
            1999 had an average projected TIER of 1.91.       As noted in this
            report, 61 of the 198 borrowers who received RUS loans totaling
            $707.1 million during FY’s 1995 through August 31 of FY 1999
            (5 borrowers received loans in two fiscal years) were included in
            our list of financially strong borrowers.

            In addition, a borrower’s projected financial condition (such as
            TIER) for the purpose of obtaining a new loan would have no effect
            on a loan graduation program. In a loan graduation program, the
            borrower’s current financial condition is the determining factor as
            to whether or not the borrower should be graduated to other credit
            sources. Projected financial ratios such as TIER are applicable for
            evaluating a borrower’s ability to repay a new loan; however,
            current financial ratios are applicable to a loan graduation
            program. Our list of over 400 financially strong borrowers had an



USDA/OIG-A/09016-1-Te                                                   Page 16
                                 FEBRUARY 2000
            average TIER of 6.27.     The composite TIER for all telephone
            borrowers was 4.65 as of December 31, 1997, according to the
            financial information reported to RUS by the borrowers.

            We believe that it would be prudent for RUS to keep Congress
            apprised of the financial condition of telephone company borrowers
            and to work with Congress to determine whether it continues to be
            Congressional intent and policy that financially strong borrowers
            should be encouraged and assisted to obtain financing from their own
            financial organizations and/or other credit sources per Title 7
            USC 930.   If it is still Congressional policy to encourage and
            assist financially strong borrowers to meet their credit needs from
            other sources, RUS needs to initiate immediate action to implement
            this policy.

            We request that RUS reconsider its management decision for
            Recommendation No. 1 and develop a strategy to work with Congress to
            clarify RUS policy for loan graduation and requiring financially
            strong borrowers to obtain credit from other sources.       To reach
            agreement with RUS’ management decision for Recommendation No. 1, we
            need documentation showing the specific action to be taken and the
            timeframe within which the corrective action will be completed.

            If Congress determines that financially strong borrowers should be
            graduated to commercial credit sources, we need the following
            information to reach agreement with the management decision
            regarding Recommendation No. 2:      (1) Documentation showing the
            specific corrective action to be taken, (2) the timeframe within
            which the corrective action will be completed, and (3) a list of the
            borrowers (and their loan amounts) determined to be in strong
            financial condition and selected for graduation to other credit
            sources.




USDA/OIG-A/09016-1-Te                                                   Page 17
                                 FEBRUARY 2000
  CHAPTER 2.             UNUSED LOAN FUNDS NOT DEOBLIGATED



                                              RUS  did not deobligate unused loan funds
        FINDING NO. 2                         for aged loans.    RUS personnel did not
                                              periodically review loans to determine if
                                              the purposes for which the loans were
                                              made had been accomplished. As a result,
                                              $602,260,826   in   unused   loan   funds
                                              committed to 409 loans over 5 years old
                                              had not been reviewed for deobligation.

              The GAO Principles of Federal Appropriations Law, dated December
              1992, states that an obligation creates a liability on the part of
              the Government to make a payment at a later time.         Title 31,
              USC 1501, dated September 13, 1982, states, in part, that an amount
              shall be recorded as an obligation of the Government when supported
              by documentary evidence of a loan agreement showing the amount and
              terms of repayment.      Title 31, USC 1108, dated July 1, 1970,
              provides that the head of an agency shall submit an annual
              certification showing compliance with Title 31, USC 1501. Agencies
              are required to review unliquidated obligations prior to
              certification.   The Department of the Treasury Financial Manual
              Bulletin 98-09, dated August 10, 1998, states that agencies that
              have not reviewed their unliquidated obligations during the year
              must do so before year end closing. This review is to ensure that
              those transactions meeting the criteria of valid obligations set
              forth in Title 31 USC 1501 have been properly recorded.

              A previous OIG audit6 revealed that the agency did not always
              rescind unadvanced loan funds because it did not place priority on
              this task and that agency officials were reluctant to deobligate
              loan funds because deobligated funds are not available to other
              borrowers. The agency agreed to implement a policy to automatically
              rescind all unadvanced loan fund commitments at the end of six years
              from loan approval or when the loan purposes are completed.

              Subsequently, in 1990, Congress amended Section 206, of the RE Act
              (Title 7 USC 927(b)(1)) to provide that neither the Secretary nor
              the Governor of RTB shall rescind an insured telephone loan or an
              RTB loan without the consent of the borrower unless all of the
              purposes of the loan have been accomplished.

              RUS personnel stated that they do not deobligate unadvanced loan
              balances because Section 206 of the RE Act prohibits RUS from
              deobligating funds without the consent of the borrower.      In our
              opinion, Section 206 did not prohibit rescinding loans and
              deobligating unused loan funds.       Rather, it established the
              conditions under which this is to occur (i.e., when all purposes of
              the loan have been completed). It is, therefore, appropriate that
              RUS establish administrative procedures to determine when loan
              purposes have been accomplished and to deobligate unused loan funds
              when that occurs. Currently, there are no administrative procedures
              to accomplish this.



    6
     OIG report No. 09614-2-Te, Telephone Loan Making Policies, issued June 1985.



USDA/OIG-A/09016-1-Te                                                               Page 18
                                        FEBRUARY 2000
            On January 20 and February 9, 1999, the Director of the Electric and
            Telephone Financial Operations Division issued letters requesting
            the Assistant Administrator for Telecommunications Programs to
            review an enclosed list of RUS and RTB loans, respectively, that
            were approved 5 or more years ago that still had unadvanced loan
            funds. The letters requested the assistant administrator to advise
            the financial operations division if the obligations were still
            valid or to prepare loan rescissions.      The letter stressed the
            importance of properly reporting unliquidated obligations to
            Congress, the Office of Management and Budget, and the Department of
            Treasury. The director stated that he did not receive a written
            response, but he was told that RUS did not rescind unadvanced funds.

            We aged the information included in the letters for RTB and
            RUS loans and analyzed the loans that had previous drawdowns with
            the last drawdown made at least 1 year prior to January 1, 1999. We
            then scheduled, by year, the number and amount of loans that had no
            advances for the last 10 years. Loans that had their last advance
            over 10 years prior were grouped together.

            We identified 241 RUS and 116 RTB loans that were made more than
            5 years prior to January 1, 1999, that had unadvanced funds totaling
            $274,388,088 and $164,520,688 respectively.     See exhibit E for a
            breakdown of the unused funds by years. For example, RUS borrower
            AL-528 had an unadvanced amount of almost $10 million and the last
            advance of funds was in April 1990.     RTB borrower IA-510 had an
            unadvanced amount of over $7.5 million and the last advance of funds
            was in April 1989.

            In addition, the letters identified 16 RUS loans totaling
            $44,701,000 and 36 RTB loans totaling $118,651,050 that were made
            over 5 years ago for which funds had never been advanced.       For
            example, borrower LA-527 had an unadvanced RUS loan of $6.8 million
            and borrower OK-563 had an unadvanced RTB loan of $8.4 million.

            In summary, there were 409 RUS and RTB loans over 5 years old that
            had unused fund balances totaling $602,260,826. Unused telephone
            program loan funds should be periodically deobligated because unused
            funds that are no longer needed result in an overstatement of loan
            obligations on the agency’s financial statement. RUS needs to take
            administrative action to reduce outstanding obligations of loans for
            which the loan purposes have been accomplished.




USDA/OIG-A/09016-1-Te                                                   Page 19
                                 FEBRUARY 2000
     RECOMMENDATION NO. 3

                                       Implement    procedures    to    evaluate
            telephone loans, at least annually, to determine if the purposes for
            which the loans were made have been accomplished and deobligate all
            funds that are not needed.


     RECOMMENDATION NO. 4

                                      Review the RUS and RTB loans made over
            5 years ago and determine how much of the cited $602,260,826 in
            unadvanced funds should be deobligated.

            RUS Response
            In his written response to the draft report (see exhibit F), the
            Acting Administrator cited Section 206 of the RE Act and stated that
            because of the improbability of ever making the legislatively
            mandated determination that all of the purposes of a loan have been
            accomplished, RUS has not developed procedures to unilaterally
            deobligate loan funds.

            The Acting Administrator stated, however, that telecommunications
            loans are evaluated on an ongoing basis to determine if the purposes
            for which the loans were made have been accomplished.       With the
            consent of the borrower, RUS has deobligated funds that are no
            longer needed. The response showed that during FY’s 1997 through
            1999, RUS deobligated $318 million from 108 loans to 75 borrowers.

            The Acting Administrator stated that RUS routinely notifies
            borrowers who have exceeded or are about to exceed their note basis
            period (usually 6 years) that funds remain unexpended and asks the
            borrower if all or a portion of the unadvanced loan funds could be
            rescinded if they are no longer needed. RUS offers to prepare a new
            basis date agreement (usually for 3 years) if the borrower justifies
            the need for the funds.     For those notes which do not restrict
            advances after a specific number of years, RUS follows up with
            letters to determine if unadvanced loan funds may be rescinded.
            Telecommunications program field representatives also discuss the
            need for unadvanced loan funds when they visit borrowers.

            The Acting Administrator stated that based on these procedures, the
            telecommunications program has the necessary measures in place to
            monitor and deobligate unadvanced loan funds with borrower
            concurrence. The Acting Administrator said due to the legislatively
            mandated requirement for borrower concurrence, it would be improper
            for RUS to unilaterally deobligate unadvanced funds.




USDA/OIG-A/09016-1-Te                                                   Page 20
                                 FEBRUARY 2000
            OIG Position
            Section 206 of the RE Act did not prohibit the deobligation of
            unused loan funds, but established the conditions under which this
            is to occur (i.e., when all purposes of the loan have been
            accomplished).    The Act states that loan funds shall not be
            rescinded without borrower consent unless all of the purposes of the
            loan have been completed.        Therefore, RUS should establish
            procedures to deobligate unused loan funds when it is determined
            that the loan purposes have been accomplished. We agree that RUS
            must work closely with borrowers to make this determination and
            strive to obtain agreement that any unused loan funds are no longer
            needed; however, borrower consent is not a requirement if the
            purposes of the loan have been accomplished.

            As noted in the finding above, Federal statutes (Title 31 USC 1108
            and 1501) require that the head of an agency submit an annual
            certification   regarding   obligations  and   that   unliquidated
            obligations are to be reviewed prior to the certification.      We
            identified over 400 loans over 5 years old that had unused fund
            balances totaling over $600 million that RUS needs to review and
            make determinations regarding the accomplishment of loan purposes.
            If it is determined that the purposes of the loans have been
            accomplished, the agency should take action to deobligate the
            unadvanced loan funds.

            In addition, we were informed during the audit that RUS did not have
            a procedure whereby unadvanced loan funds were routinely reviewed
            and deobligated if the funds were no longer needed.      The Acting
            Administrator’s written response describes a procedure whereby
            unadvanced loan balances are routinely reviewed and deobligated, and
            provides summary data showing deobligations for 75 borrowers
            totaling $318 million during FY’s 1997, 1998, and 1999. In order to
            fully understand the deobligation review process, please provide any
            written procedures for this review process and the supporting
            documentation for the cited loan deobligations.

            To reach agreement with the management decision for Recommendation
            No. 3, we need documentation showing the specific corrective action
            to be taken and the timeframe within which the corrective action
            will be completed.

            To reach agreement with the management decision for Recommendation
            No. 4, we need documentation showing the specific corrective action
            to be taken, the timeframe within which the corrective action will
            be completed, and the amount of unadvanced loan funds to be
            deobligated.




USDA/OIG-A/09016-1-Te                                                   Page 21
                                 FEBRUARY 2000
EXHIBIT A - SUMMARY OF MONETARY RESULTS

    FINDING
      NO.          DESCRIPTION                     AMOUNT            CATEGORY
       1      Loans to financially              $1,874,577,197   Questioned Loans,
              strong borrowers                                   No Recovery
              that could have
              obtained financing
              from other sources
              and/or could be
              graduated to other
              credit sources
       2      Unused loan fund                     602,260,826   FTBPTBU:
              balances not                                       Deobligations
              deobligated


              TOTAL                             $2,476,838,023


                      FTBPTBU = Funds to be put to better use.




USDA/OIG-A/09016-1-Te                                                            Page 22
                                      FEBRUARY 2000
EXHIBIT B - SELECTED RUS BORROWERS THAT
PAID           LOANS IN FULL IN 1998


                                          DEBT TO       FINAL       YEARS NOTE
                               EQUITY     EQUITY       PAYMENT        PAID IN
            BORROWE    TIER    RATIO      RATIO        AMOUNT         ADVANCE
               R
             AK 514    2.05     33.7%      175.5%             $           23.9
                                                       4,020,611
             FL 516    2.11     52.7%       69.9%       3,537,026         26.4
             GA 543    2.29     37.4%      138.8%      24,494,190         24.8
             IA 610    8.80     52.9%       78.1%       1,054,050         18.2
             IA 616    7.26     51.6%       75.2%       1,093,785         23.4
             ID 505    2.97     36.9%      133.6%       2,435,153         18.6
             IN 503    8.76     70.1%       22.6%       3,995,973         15.6
             ME 506    1.34     31.0%      170.8%       2,640,479         25.2
             ME 527    3.03     35.6%      101.8%       1,796,977         23.0
             ME 530    3.65     50.0%       59.7%       3,860,098         26.2
             OK 532    3.48     41.5%       73.7%        507,098           7.4
             OK 542    2.28     19.8%      318.5%       7,021,573         23.9
             OR 525    4.83     69.2%       22.0%       2,762,370         22.8
             SC 519    2.30     34.7%      165.3%      62,996,633         29.7
             TX 576    3.31     36.3%      121.6%                         20.3
                                                         241,268
             VA 521    5.28     58.0%       50.0%                         31.5
                                                        3,128,014

            TOTAL                                     $125,585,29
                                                                8

            AVERAGE    3.98     44.5%      111.1%             $           22.6
            S                                          7,849,081

            TOTAL NUMBER
            OF BORROWERS           16


NOTE: Final payment amount not provided for FL 516.   The amount shown is total RUS/RTB debt
on 12/31/97. The debt was paid in full on 1/08/98.




USDA/OIG-A/09016-1-Te                                                                  Page 23
                                        FEBRUARY 2000
 EXHIBIT C - TELEPHONE LOAN BORROWERS IN
               STRONG FINANCIAL CONDITION
             AS OF DECEMBER 31, 1997


                                                             LONG-TERM DEBT
                      NET WORTH     TOTAL
                      TO TOTAL    LONG-TERM
  BORROWER   TIER      ASSETS      DEBT TO      RUS                RTB           FFB
                                   EQUITY

 AK 526        4.61       52.6%       62.7%   $6,040,892        $18,248,888   $17,343,922


 AL 501        6.01       64.5%       38.0%    4,292,854         6,734,867

 AL 502        6.07       56.1%       45.7%    1,979,137         7,323,946

 AL 516        8.24       57.4%       49.3%    7,233,511           336,720

 AL 519*       5.25       47.9%       99.8%    3,566,213           976,500

 AL 523        5.64       49.2%       61.7%    2,417,265            86,983

 AL 524       13.33       57.9%       48.9%    6,014,672           310,712

 AL 528        4.81       62.5%       50.4%   13,078,758           923,619

 AL 534       13.14       64.8%       33.6%    2,979,882

 AL 542        4.48       55.1%       63.5%    2,545,613           465,114

 AL 550       11.58       46.1%       57.1%    4,198,618         6,214,280       399,946

 AL 553        5.68       54.7%       55.5%    5,764,697

 AL 561       10.92       68.5%       29.6%                      1,495,835

 AR 515        5.51       57.2%       66.4%    2,949,747

 AR 530        6.31       44.8%       92.7%   10,937,391

 AR 531        4.98       47.3%       81.3%    7,936,715

 AR 534       12.57       75.5%       26.0%         39,688       1,163,421

 AR 538        4.87       49.6%       59.5%   12,687,257        41,775,030     7,182,069

 AR 545        4.73       66.9%       32.4%    1,265,690

 AR 547        5.97       55.0%       46.1%   12,067,546

 AZ 507        5.13       57.4%       60.0%    6,898,363         2,540,283

 AZ 508       11.63       53.3%       56.8%    3,879,341

 AZ 510*      36.93       73.7%       33.6%    5,541,724

 CA 515*       6.25       59.7%       27.0%    5,812,540         3,137,906     1,901,610

 CA 517        4.88       50.8%       71.4%      658,091         7,470,374

 CA 523        6.80       59.8%       51.9%    7,036,597         4,369,909       992,499

 CA 531       28.83       66.8%       24.7%    1,400,935           410,800

 CA 535      443.39       65.6%       39.4%    2,066,634           363,860



USDA/OIG-A/09016-1-Te                                                                  Page 24
                                    FEBRUARY 2000
 EXHIBIT C - TELEPHONE LOAN BORROWERS IN
               STRONG FINANCIAL CONDITION
             AS OF DECEMBER 31, 1997


                                                              LONG-TERM DEBT
                       NET WORTH     TOTAL
                       TO TOTAL    LONG-TERM
  BORROWER   TIER       ASSETS      DEBT TO      RUS                RTB          FFB
                                    EQUITY

 CA 539         4.44       62.5%       46.7%    5,741,179           711,399

 CA 540        13.93       60.0%       35.4%    1,960,607

 CA 541        26.19       73.8%       17.1%    1,360,293

 CA 543        10.39       71.3%       26.4%    1,263,987           238,987

 CO 501        20.65       74.0%       26.9%      968,691

 CO 514         8.47       64.9%       34.9%    4,460,964

 CO 527        14.54       71.0%       28.5%      536,562

 CO 528**       5.05       73.6%       25.8%      889,072

 CO 531        34.78       68.0%       18.7%      352,020

 CO 533         5.73       55.5%       57.7%      973,834

 CO 534        20.29       73.1%       22.1%      378,680

 GA 541         5.64       70.0%       30.0%    1,984,829           685,992

 GA 545        10.08       54.3%       43.3%    2,187,626

 GA 553         5.91       73.8%       15.1%    5,609,032

 GA 554         6.45       46.8%       65.1%    6,470,169         4,611,321    8,906,941

 IA 503        49.92       83.2%        7.5%      114,705           535,363

 IA 506      4330.08       90.0%        5.9%      287,542           347,178

 IA 507*       11.07       69.6%       28.3%    1,279,671

 IA 508*        4.80       66.8%       44.7%         71,294       2,603,651

 IA 510        66.73       92.2%        2.7%     (155,849)          404,920

 IA 511      1648.79       98.6%        0.4%         35,741

 IA 515        16.68       71.0%       31.4%      275,472

 IA 519        31.25       69.2%       33.1%      261,273           610,013

 IA 520         9.44       67.1%       41.8%      351,908         2,312,674

 IA 521         7.32       64.9%       47.0%      977,873         1,125,348

 IA 523       122.66       83.3%       14.1%    1,683,810

 IA 524       266.50       94.6%        2.6%         97,969

 IA 528        12.99       57.0%       55.9%      612,272




USDA/OIG-A/09016-1-Te                                                                  Page 25
                                     FEBRUARY 2000
 EXHIBIT C - TELEPHONE LOAN BORROWERS IN
               STRONG FINANCIAL CONDITION
             AS OF DECEMBER 31, 1997


                                                             LONG-TERM DEBT
                      NET WORTH     TOTAL
                      TO TOTAL    LONG-TERM
  BORROWER   TIER      ASSETS      DEBT TO      RUS                RTB        FFB
                                   EQUITY

 IA 535      117.24       85.7%        6.1%      250,976

 IA 536       18.16       67.8%       25.7%      183,615

 IA 541        9.32       57.2%       55.1%    1,441,139           136,731

 IA 555       13.00       63.5%       42.9%      688,562

 IA 558       14.12       67.5%       39.4%      669,120

 IA 560*     708.24       96.5%        0.4%         10,052

 IA 562       31.89       81.5%       19.2%      216,240

 IA 563      169.32       89.3%        6.4%      180,346

 IA 570       11.14       71.7%       34.9%    1,056,027

 IA 571        8.75       70.0%       28.4%      280,423         2,778,160

 IA 574      203.68       83.7%        5.3%         95,092

 IA 575        8.17       79.1%       23.2%    1,199,284         4,462,940

 IA 578       20.19       52.2%       68.8%    2,044,218

 IA 579       10.19       55.0%       73.6%      432,652           562,303

 IA 584        9.82       69.1%       36.1%      575,645

 IA 585        6.06       66.9%       32.7%    1,833,991

 IA 586       13.54       75.2%       24.0%      427,489

 IA 587*      39.88       72.0%       19.1%      919,796

 IA 592      918.88       85.1%       12.0%      373,764

 IA 594        7.85       79.4%       20.4%          3,456         227,072

 IA 596*     435.17       97.1%        0.5%         34,940

 IA 597       20.13       59.8%       42.4%    1,042,627

 IA 603        5.92       61.8%       49.6%      989,505

 IA 604       26.98       87.9%        4.1%      106,191

 IA 605       38.51       77.9%       14.0%      195,133

 IA 606       13.08       75.1%       18.1%      217,233

 IA 608        5.95       64.4%       46.2%      136,600           303,321

 IA 609       55.35       93.0%        0.0%            804




USDA/OIG-A/09016-1-Te                                                               Page 26
                                    FEBRUARY 2000
 EXHIBIT C - TELEPHONE LOAN BORROWERS IN
               STRONG FINANCIAL CONDITION
             AS OF DECEMBER 31, 1997


                                                             LONG-TERM DEBT
                      NET WORTH     TOTAL
                      TO TOTAL    LONG-TERM
  BORROWER   TIER      ASSETS      DEBT TO      RUS                RTB        FFB
                                   EQUITY

 IA 610        8.80       52.9%       78.1%      299,728         1,002,594

 IA 613       62.24       83.9%        6.0%         24,074         283,363

 IA 614      141.52       87.2%        7.2%         65,236

 IA 616        7.26       51.6%       75.2%    1,097,234         1,026,930

 IA 619       16.06       82.9%       16.6%      276,330           162,189

 IA 620        7.67       71.6%       33.9%      877,391            38,195

 IA 622       23.94       85.5%        4.7%      238,947

 IA 623       14.84       62.9%       42.2%      686,632

 IA 625       25.52       86.2%        9.4%      393,530

 IA 632      957.77       84.0%        7.9%      231,518

 IA 634       12.24       60.7%       37.6%      841,705

 IA 636*       8.45       70.8%       31.0%      399,347

 IA 640       13.26       73.8%       22.6%      224,956

 IA 641        6.62       54.8%       60.4%      945,853

 IA 643*       4.38       50.7%       85.5%      896,438

 IA 644        6.53       56.8%       69.6%    1,113,376

 IA 650        4.39       72.9%       29.5%      813,735                      138,634

 IA 651        4.72       66.4%       37.6%      917,400

 IA 656*      44.43       89.0%        8.2%      213,394

 IA 657       26.52       68.8%       30.5%      628,917

 ID 503        7.32       74.2%       28.1%    1,378,127

 ID 504        9.83       67.3%       34.3%    2,003,124

 ID 506       13.96       75.2%       22.7%    3,315,885

 IL 510        6.39       52.5%       76.0%      490,930           207,655

 IL 511        4.11       52.6%       78.4%    3,279,174         1,616,294

 IL 513*       8.94       65.9%       32.8%                      2,504,863

 IL 516        5.42       69.4%       31.2%    1,357,598         1,744,604

 IL 517        5.83       52.9%       79.7%    2,154,410         2,201,519




USDA/OIG-A/09016-1-Te                                                               Page 27
                                    FEBRUARY 2000
 EXHIBIT C - TELEPHONE LOAN BORROWERS IN
               STRONG FINANCIAL CONDITION
             AS OF DECEMBER 31, 1997


                                                              LONG-TERM DEBT
                      NET WORTH     TOTAL
                      TO TOTAL    LONG-TERM
  BORROWER   TIER      ASSETS      DEBT TO      RUS                 RTB        FFB
                                   EQUITY

 IL 518        8.58       74.5%       28.2%    4,026,009

 IL 522       11.61       74.2%       28.5%    1,253,981

 IL 523       46.73       86.1%        7.2%      237,948

 IL 526       47.90       76.8%        5.0%         (4,324)         110,501

 IL 547       35.03       86.3%        6.9%      104,188            795,469

 IL 553       25.68       67.2%       11.8%      382,885            866,146

 IL 560      178.52       94.9%        1.4%         81,110

 IL 562       61.06       78.7%       10.8%      170,098

 IL 567       26.51       83.0%       13.5%                         512,400

 IL 569       16.31       74.7%       14.7%      173,398            253,947

 IL 570        5.23       52.3%       40.2%      421,563            129,594

 IL 572        4.76       56.0%       54.5%                       1,271,464

 IL 574       14.99       81.8%       12.9%                         285,289

 IN 503        8.76       70.1%       22.6%    4,933,260          3,959,889

 IN 522        8.30       61.9%       43.9%    1,906,605            995,360

 IN 523      297.79       89.0%        1.9%         46,385

 IN 524       48.96       87.9%        7.0%    2,244,220

 IN 530        9.90       66.9%       43.8%    2,330,101            765,215

 IN 531       13.05       76.8%       25.4%      862,039            188,792

 IN 540      114.53       71.2%        9.5%      200,410

 IN 541*       4.24       50.4%       73.7%    2,808,574          1,432,493

 IN 543       35.78       79.2%        0.1%          3,509

 IN 546        7.92       67.3%       42.2%      571,175

 IN 552      792.57       95.5%        0.6%         10,870

 IN 560        6.74       70.6%       35.2%    1,423,129

 IN 561        9.33       65.1%       31.1%      936,260

 IN 563        9.78       67.8%       26.6%      682,042          3,921,021

 IN 567       24.76       87.8%       10.3%                         675,563




USDA/OIG-A/09016-1-Te                                                                Page 28
                                    FEBRUARY 2000
 EXHIBIT C - TELEPHONE LOAN BORROWERS IN
               STRONG FINANCIAL CONDITION
             AS OF DECEMBER 31, 1997


                                                           LONG-TERM DEBT
                      NET WORTH     TOTAL
                      TO TOTAL    LONG-TERM
  BORROWER   TIER      ASSETS      DEBT TO      RUS              RTB        FFB
                                   EQUITY

 IN 568        6.69       63.6%       29.5%      781,329         141,789

 IN 569        4.51       46.1%       85.8%    3,649,040         585,265

 KS 520       52.49       85.3%       10.5%    3,604,014

 KS 526        6.98       52.5%       59.5%    1,333,366       1,264,814

 KS 537**      6.40       48.7%       56.8%   12,653,038

 KS 543       40.27       64.9%       31.8%      961,387

 KS 547*       4.04       48.8%       92.2%    7,273,166

 KS 549       13.74       70.7%       37.8%    2,285,920

 KS 552*      38.03       52.2%       85.2%    5,817,696         157,030

 KS 569       13.87       65.1%       47.9%    2,806,734

 KS 571       54.13       80.1%       13.7%      618,720

 KS 574*       7.99       50.1%       84.5%    4,294,978         424,330

 KS 576*      13.27       56.9%       65.2%    4,714,568

 KS 580       10.30       74.1%       23.9%    1,044,896         873,657

 KS 581        5.48       54.1%       63.0%    1,218,975       2,510,765

 KS 583        8.19       59.7%       59.5%    4,475,242

 KS 585        5.71       47.7%       82.2%    1,818,506

 KS 589       14.28       74.3%       16.9%      793,782

 KY 505        4.53       46.7%      103.3%   38,750,533         208,267

 KY 506*       7.36       61.3%       45.2%   10,493,076          90,705

 KY 522*       4.26       53.8%       75.0%   12,610,732       2,433,128

 KY 524       11.14       64.7%       25.3%      462,716       4,794,007

 KY 530*       4.84       46.8%       81.3%   10,896,644       4,694,409

 KY 531        7.56       51.2%       52.7%    2,602,548       4,102,730

 KY 532**      5.73       50.0%       89.4%    7,924,245       2,515,946

 KY 534        4.77       56.4%       50.7%      128,646       1,807,476

 KY 536*       6.42       64.8%       41.7%      917,999       4,480,551

 LA 510       12.08       70.6%       23.3%    5,020,353




USDA/OIG-A/09016-1-Te                                                             Page 29
                                    FEBRUARY 2000
 EXHIBIT C - TELEPHONE LOAN BORROWERS IN
               STRONG FINANCIAL CONDITION
             AS OF DECEMBER 31, 1997


                                                             LONG-TERM DEBT
                      NET WORTH     TOTAL
                      TO TOTAL    LONG-TERM
  BORROWER   TIER      ASSETS      DEBT TO      RUS                RTB          FFB
                                   EQUITY

 LA 511       24.62       77.4%        8.7%                      1,926,780

 LA 515*      13.89       82.8%       13.2%    1,287,747         3,263,526

 LA 521        7.77       53.6%       43.6%    2,897,107

 LA 522        8.53       70.4%       26.4%         29,724       1,966,128

 LA 527        8.50       63.2%       46.3%    3,188,338

 LA 529       15.07       76.3%       13.6%                      1,173,540    3,969,120

 LA 530        7.73       67.6%       35.9%                      6,549,469

 LA 531        6.80       67.0%       28.0%                      5,999,102

 LA 532       16.06       68.3%       28.3%   18,395,574

 LA 533        5.66       60.7%       42.0%                      1,983,442

 MA 501*       4.48       52.7%       79.7%      840,702         1,246,586

 ME 518        5.34       52.8%       64.4%    2,582,659           138,666

 ME 524        5.10       59.8%       34.5%    3,489,468           823,658      588,639

 ME 525        6.47       52.5%       53.5%      280,441           171,760

 ME 526        6.79       60.0%       42.1%    1,258,018

 ME 529        4.94       58.1%       36.9%      433,421           408,891

 MI 512*       4.48       52.1%       68.1%    2,350,973           787,890

 MI 523        4.41       64.7%       33.6%    1,374,054         1,227,037

 MI 533        4.17       50.1%       93.0%    4,756,428         6,798,263

 MI 548       67.23       79.7%       15.6%      710,249

 MI 551*       5.82       54.3%       63.6%     1,270,667

 MI 556       22.40       78.3%        8.2%      777,162

 MI 558        5.39       61.4%       41.8%      961,111

 MI 561        7.64       57.5%       44.1%      572,503        16,525,963

 MI 564        4.44       56.3%       51.1%    1,810,686         2,346,603

 MI 566       18.93       65.1%       26.2%    3,592,534           220,427    1,036,111

 MI 567        7.26       50.5%       78.3%    1,020,028

 MI 568        4.60       48.4%       86.5%    2,320,095




USDA/OIG-A/09016-1-Te                                                                 Page 30
                                    FEBRUARY 2000
 EXHIBIT C - TELEPHONE LOAN BORROWERS IN
               STRONG FINANCIAL CONDITION
             AS OF DECEMBER 31, 1997


                                                             LONG-TERM DEBT
                      NET WORTH     TOTAL
                      TO TOTAL    LONG-TERM
  BORROWER   TIER      ASSETS      DEBT TO      RUS                RTB        FFB
                                   EQUITY

 MI 569        4.89       56.1%       52.9%    1,682,899         1,387,419

 MN 501*       5.24       53.2%       78.9%    1,694,333           572,836

 MN 505*       4.24       48.2%       86.7%   12,945,384         2,269,988

 MN 512       37.98       70.8%       15.9%      806,470           119,798

 MN 516       10.17       57.1%       47.2%      724,279

 MN 525       31.58       75.8%       16.1%    4,093,849           964,652

 MN 540*      26.19       65.4%       43.6%    2,560,491           262,597

 MN 541       17.92       82.1%       17.8%      409,577           618,715

 MN 547        6.07       54.0%       50.8%      448,687

 MN 552       12.62       78.0%        9.8%      516,277           816,919

 MN 563*       5.88       54.5%       61.3%    8,109,937         2,369,469

 MN 564*       7.19       47.4%       87.0%    5,773,812           435,596

 MN 565        7.38       58.8%       47.4%    2,671,147

 MN 571*       4.77       50.2%       79.1%    1,217,605

 MN 582*       4.07       47.7%       94.3%    9,259,416           963,162

 MN 583        7.89       58.3%       52.6%         26,971       1,792,358

 MN 585       55.47       88.2%        6.7%          8,831          95,067

 MN 592        5.38       52.4%       80.0%                      1,758,709

 MN 599       87.17       92.1%        4.3%          4,267         184,207

 MN 600        7.10       64.1%       32.3%    1,428,736         2,208,098

 MN 603        6.29       51.9%       71.5%      625,073

 MN 605       55.88       68.7%       17.1%      723,757           111,494

 MN 606       38.90       86.5%        8.9%      332,277

 MN 612        9.76       65.4%       22.4%    1,132,000           629,000

 MN 613        4.55       50.3%       59.5%      536,111         4,565,959

 MN 614        7.21       69.6%       21.7%                        284,343

 MN 617       19.18       59.3%       45.9%      389,943

 MN 620       12.98       54.0%       57.3%    1,535,080




USDA/OIG-A/09016-1-Te                                                               Page 31
                                    FEBRUARY 2000
 EXHIBIT C - TELEPHONE LOAN BORROWERS IN
               STRONG FINANCIAL CONDITION
             AS OF DECEMBER 31, 1997


                                                             LONG-TERM DEBT
                      NET WORTH     TOTAL
                      TO TOTAL    LONG-TERM
  BORROWER   TIER      ASSETS      DEBT TO      RUS                RTB          FFB
                                   EQUITY

 MN 621        4.27       47.2%       73.2%    5,285,175         3,670,973

 MN 622       75.59       86.8%       11.0%      486,376

 MN 623        5.83       46.4%       79.6%    3,402,888         1,028,650

 MN 624        5.15       53.4%       48.9%    1,734,067

 MN 629        7.24       45.6%       75.7%      584,457         1,162,120

 MO 505       21.97       70.7%       34.1%    1,411,309

 MO 534        4.98       56.5%       66.9%    5,440,653

 MO 535       18.55       75.6%       22.8%    1,299,225           727,932

 MO 538*       5.35       58.1%       70.4%    7,100,569

 MO 545*       4.99       66.9%       49.7%    5,447,084

 MO 554        7.19       71.0%       37.1%    5,117,506

 MO 556        6.35       68.2%       25.2%         75,848         762,393

 MO 558       40.69       78.4%       13.7%    2,473,422

 MO 568       18.20       73.7%       21.2%      372,105

 MO 583        5.88       51.4%       57.1%   21,841,813        14,702,292    2,772,437

 MO 591       61.97       75.2%       20.4%    1,249,302           169,443

 MO 592        8.43       44.8%      107.0%    2,832,839

 MO 594      241.32       98.0%        1.0%         45,218

 MO 597      218.39       89.2%        3.9%         85,040

 MO 599*       5.42       55.9%       51.8%      719,030

 MO 605        4.81       49.7%       67.1%    1,339,561

 MS 501       12.64       60.5%       35.2%      512,670           209,775

 MS 503       10.98       48.7%       52.6%    1,162,425                      2,365,797

 MS 504        5.68       63.6%       39.8%      222,656         3,066,944

 MS 505       25.63       73.1%        7.4%      114,942

 MS 506        6.48       54.7%       47.8%    9,751,521

 MS 536        4.97       62.6%       47.4%    5,948,103         1,262,968

 MT 511        7.24       57.6%       67.2%    8,504,452




USDA/OIG-A/09016-1-Te                                                                 Page 32
                                    FEBRUARY 2000
 EXHIBIT C - TELEPHONE LOAN BORROWERS IN
               STRONG FINANCIAL CONDITION
             AS OF DECEMBER 31, 1997


                                                           LONG-TERM DEBT
                      NET WORTH     TOTAL
                      TO TOTAL    LONG-TERM
  BORROWER   TIER      ASSETS      DEBT TO      RUS              RTB          FFB
                                   EQUITY

 MT 512*       5.26       47.3%       96.0%   25,617,276

 MT 516        4.36       61.7%       52.9%   16,888,181

 MT 517*       4.01       60.3%       50.4%    7,761,759

 MT 518        8.77       62.4%       50.6%   12,908,492

 MT 525       13.97       54.5%       55.8%      632,012         165,784

 MT 526        7.65       48.1%       73.9%    2,669,591

 NC 509        8.11       59.2%       53.5%    9,221,685         543,175

 NC 510        6.15       46.8%       67.2%    1,565,288      44,403,578    5,538,274

 NC 513       15.29       66.5%       33.0%    5,679,058       1,497,563

 NC 518       10.98       61.5%       42.9%    8,468,490

 NC 529        4.12       44.7%       96.4%    3,980,249

 NC 531        4.33       48.1%       87.8%   18,519,351      11,836,715

 NC 534        8.43       63.3%       27.4%      433,696

 NC 535        6.64       59.7%       53.2%   12,811,066

 NC 543       15.05       70.6%       22.6%      445,033

 ND 519*       4.14       50.2%       82.9%    7,792,288

 ND 522       13.11       75.8%       22.0%    3,009,931

 ND 524*       9.24       56.1%       46.8%   12,024,582

 NE 524        9.20       58.0%       41.1%    5,684,957

 NE 525       14.51       76.2%       18.1%    1,733,850

 NE 526        4.16       54.0%       74.5%    4,037,996

 NE 527        8.49       52.2%       18.8%    1,646,336

 NE 529*       8.39       70.1%       16.0%      761,533         778,772

 NE 532        8.51       74.8%       30.0%    2,061,146

 NE 536        5.11       60.6%       24.6%      445,932       1,240,289

 NE 543*       4.07       65.4%       43.2%    1,013,732

 NE 544        6.41       69.1%       37.7%    1,621,139

 NE 547        7.94       63.5%       27.2%    2,094,435




USDA/OIG-A/09016-1-Te                                                               Page 33
                                    FEBRUARY 2000
 EXHIBIT C - TELEPHONE LOAN BORROWERS IN
               STRONG FINANCIAL CONDITION
             AS OF DECEMBER 31, 1997


                                                             LONG-TERM DEBT
                      NET WORTH     TOTAL
                      TO TOTAL    LONG-TERM
  BORROWER   TIER      ASSETS      DEBT TO      RUS                RTB          FFB
                                   EQUITY

 NE 548        7.12       56.5%       68.9%    1,130,743

 NE 555       36.31       91.4%        3.8%      141,573

 NE 560       15.20       65.2%       37.4%      552,424           210,047

 NE 561        6.68       67.9%       34.3%    2,044,067

 NE 563       10.45       57.4%       33.7%    2,179,618

 NE 565        5.05       63.0%       53.1%    2,901,989           537,412

 NE 566        6.20       59.5%       37.9%    1,403,985                      2,943,527

 NE 567        6.23       50.6%       87.5%    1,748,705

 NE 569       32.87       91.6%        7.0%      756,900

 NE 570        4.82       60.5%       40.5%    1,787,903

 NE 571        7.71       64.6%       48.6%    2,406,806           488,501

 NH 504        7.31       67.6%       23.3%      168,113         1,801,550

 NH 507        5.97       72.9%       22.6%         40,046         214,274

 NH 510        5.71       61.5%       49.4%    1,500,618

 NJ 504        6.51       46.0%       39.7%      602,870

 NM 501*       8.20       63.0%       46.3%    4,566,058

 NV 502       40.55       84.5%        3.8%         81,351         140,244

 NV 503        4.22       54.7%       57.6%          7,492       4,689,460

 NY 501       10.82       59.0%       17.6%      163,841            69,482

 NY 512*       6.09       71.4%       14.4%      421,564         1,610,999

 NY 533        5.26       64.1%       26.6%      240,452

 NY 537        5.24       67.4%       22.3%    1,123,736

 NY 540        4.25       56.1%       50.7%    1,046,617         1,079,809

 NY 543        5.36       64.6%       26.8%                      1,948,737

 NY 550        9.03       51.2%       34.4%                      1,924,970

 NY 552        5.26       61.1%       29.0%      316,219

 OH 503       22.21       79.2%       21.9%      539,354

 OH 504        8.39       72.5%       27.7%    1,521,814




USDA/OIG-A/09016-1-Te                                                                 Page 34
                                    FEBRUARY 2000
 EXHIBIT C - TELEPHONE LOAN BORROWERS IN
               STRONG FINANCIAL CONDITION
             AS OF DECEMBER 31, 1997


                                                           LONG-TERM DEBT
                      NET WORTH     TOTAL
                      TO TOTAL    LONG-TERM
  BORROWER   TIER      ASSETS      DEBT TO      RUS              RTB          FFB
                                   EQUITY

 OH 510        4.21       60.8%       55.9%    1,094,107

 OH 512        4.20       55.0%       50.5%      893,664

 OH 513        6.34       45.8%      100.3%    1,202,499

 OH 521       24.37       78.5%       20.8%      217,904

 OH 524        5.43       74.3%       20.6%                      320,093

 OH 526       16.86       86.4%        7.5%      158,171

 OH 529        8.69       66.2%       45.6%      532,396

 OH 530        8.42       67.1%       30.3%      849,777         776,840

 OK 517       37.61       81.5%       13.0%      566,750

 OK 518        5.07       70.7%       18.7%      397,389         485,659

 OK 534*       4.12       46.4%       92.9%    5,097,008

 OK 536        8.63       49.0%       74.3%      931,091

 OK 538        9.75       75.9%       22.0%      256,819

 OK 543       12.37       64.3%       18.1%      339,905       1,477,322

 OK 549        7.57       61.7%       52.3%      126,898

 OK 555        7.20       51.4%       67.6%    7,166,276

 OK 558       11.92       61.0%       37.9%    1,005,210

 OK 559        5.78       52.3%       53.6%    5,256,685       8,303,671    1,793,273

 OK 560        5.30       59.5%       51.7%      190,145       1,597,201

 OK 563        5.82       70.8%       27.2%   11,746,251

 OK 565        6.47       47.6%       63.5%                    9,127,400

 OR 510*       4.46       54.2%       68.8%    1,676,324         826,458

 OR 522*      18.81       77.9%        8.9%    1,189,608         840,889

 OR 525        4.83       69.2%       22.0%      157,429       2,667,191

 OR 540        8.50       69.0%       34.9%      773,259

 OR 544       11.18       68.4%       38.7%                      837,227

 OR 548       10.00       58.3%       57.3%      905,327

 PA 522        8.44       62.9%       23.9%    1,502,181




USDA/OIG-A/09016-1-Te                                                               Page 35
                                    FEBRUARY 2000
 EXHIBIT C - TELEPHONE LOAN BORROWERS IN
               STRONG FINANCIAL CONDITION
             AS OF DECEMBER 31, 1997


                                                             LONG-TERM DEBT
                      NET WORTH     TOTAL
                      TO TOTAL    LONG-TERM
  BORROWER   TIER      ASSETS      DEBT TO      RUS                RTB          FFB
                                   EQUITY

 PA 525       13.14       79.1%       14.5%      883,982

 PA 536        5.34       63.3%       42.0%      905,103

 PA 547       13.96       59.5%       34.4%      335,632           595,333

 PA 552        5.23       49.8%       46.2%      805,856           164,720

 PA 553        8.44       49.1%       55.9%                     20,133,762    6,903,000

 PA 564        5.84       50.0%       47.3%    2,859,347        10,892,745    5,371,494

 SC 505        5.06       50.0%       56.8%      335,763        11,796,594    5,092,430

 SC 506       24.32       82.4%       16.5%    3,323,745

 SC 508        6.76       60.2%       47.2%      652,673         2,505,625

 SC 512        4.04       63.1%       43.8%    1,920,285         6,471,884

 SC 522       33.09       89.2%        6.6%                      1,622,614

 SC 525        5.05       63.7%       44.3%      411,874         3,193,583

 SC 526       10.33       69.3%       20.5%    1,368,110         4,121,839

 SC 535        9.70       69.2%       35.2%    1,995,768

 SC 538       11.74       76.7%       13.5%      156,684         2,584,350

 SD 508*       6.66       47.3%       84.8%   22,297,394           901,843

 SD 523        8.50       58.0%       64.2%    2,036,488

 SD 526       11.03       69.2%       33.8%      616,904         2,404,190

 SD 538*       5.00       52.1%       83.5%   11,209,627

 TN 510        6.80       60.9%       33.8%   17,451,776

 TN 517        4.32       47.5%       48.8%    3,817,991

 TN 525        7.77       66.7%       23.3%      184,652         3,761,642

 TN 530       14.83       54.8%       72.3%   16,884,183         6,571,449

 TN 547        8.29       67.0%       38.4%   14,900,053         1,424,845

 TN 548*       4.61       57.7%       65.5%    4,795,451         5,388,990

 TN 555      104.96       70.5%        3.1%      153,766

 TN 560      120.26       76.6%        1.0%         60,929

 TX 506        5.38       64.1%       39.8%    2,378,912




USDA/OIG-A/09016-1-Te                                                                 Page 36
                                    FEBRUARY 2000
 EXHIBIT C - TELEPHONE LOAN BORROWERS IN
               STRONG FINANCIAL CONDITION
             AS OF DECEMBER 31, 1997


                                                             LONG-TERM DEBT
                      NET WORTH     TOTAL
                      TO TOTAL    LONG-TERM
  BORROWER   TIER      ASSETS      DEBT TO      RUS                RTB        FFB
                                   EQUITY

 TX 510       10.80       68.1%       28.1%    17,251,268

 TX 517       18.25       67.5%       38.1%    5,113,654

 TX 522       43.15       91.5%        4.7%      575,175

 TX 528       14.91       95.1%       -0.7%     (102,590)

 TX 544        4.53       58.2%       61.2%   10,821,088           812,783

 TX 549**      5.06       51.8%       81.6%   27,222,489

 TX 558       12.68       70.5%       34.6%    5,199,796

 TX 559*       6.76       60.4%       60.9%    4,805,205

 TX 562*       6.58       63.1%       52.4%   25,194,322

 TX 567        7.71       47.9%       95.6%    6,418,464

 TX 572        6.19       51.7%       70.8%    5,861,791         5,132,461

 TX 573        9.61       74.7%       24.3%    2,710,445        13,978,357

 TX 604       10.63       65.4%       12.4%    1,344,626

 TX 624        6.55       66.8%       40.6%    5,706,001

 TX 630**      4.87       50.4%       81.8%   18,563,976         2,393,991

 TX 633*       5.20       55.9%       59.0%    2,508,337           733,446

 TX 635*      36.36       72.9%       28.1%    2,133,215

 TX 637       29.48       76.0%       24.4%      330,471           335,206

 TX 638        6.66       60.5%       50.2%    1,251,169

 UT 504       13.12       69.0%       34.7%    3,782,211

 VA 511        8.96       66.7%       37.7%      904,909

 VA 517       12.22       57.4%       41.9%      421,403        10,319,965

 VA 521        5.28       58.0%       50.0%    1,522,267         3,003,446

 VA 522       35.81       89.5%        4.5%         77,023

 VA 523       15.98       86.6%       10.6%                        552,333

 VA 525       11.65       45.7%       70.6%    3,646,500         4,629,555

 VA 526        6.86       65.1%       34.8%    1,522,617                      694,386

 VA 530        6.19       78.9%       13.6%      935,570




USDA/OIG-A/09016-1-Te                                                               Page 37
                                    FEBRUARY 2000
 EXHIBIT C - TELEPHONE LOAN BORROWERS IN
               STRONG FINANCIAL CONDITION
             AS OF DECEMBER 31, 1997


                                                             LONG-TERM DEBT
                      NET WORTH     TOTAL
                      TO TOTAL    LONG-TERM
  BORROWER   TIER      ASSETS      DEBT TO      RUS                RTB          FFB
                                   EQUITY

 VT 504        7.97       63.1%       29.4%         11,268         242,348

 VT 505        6.02       61.7%       28.3%                        854,644

 VT 507        4.94       60.9%       20.0%      692,028

 WA 526        9.39       55.1%       55.1%    1,766,231

 WA 533       23.85       85.5%        9.0%      194,010

 WA 534        5.73       60.0%       46.3%    3,091,969           656,356

 WA 537       15.46       70.1%       20.7%      222,360           726,566

 WA 539       10.25       62.6%       46.2%    2,244,083

 WA 540        9.76       53.8%       37.2%    1,179,507         2,888,361

 WI 501       13.19       67.0%       29.0%      544,862

 WI 507       35.47       89.0%        5.9%         16,894         189,556

 WI 519      148.54       75.3%       23.9%      258,226           312,723

 WI 523       93.26       79.7%        5.1%      181,604

 WI 534        7.03       60.6%       60.6%    2,189,538

 WI 536        5.09       46.2%       58.2%      803,551         2,667,666

 WI 540       39.32       74.6%       15.5%      304,115

 WI 562*       4.29       48.2%       95.1%      301,200         1,044,085

 WI 569        4.38       55.7%       35.0%      731,095           417,088

 WI 572        4.44       68.2%       24.0%   10,000,975        20,548,900    9,894,536

 WI 573        6.00       53.5%       56.5%      864,966

 WI 578        4.27       48.9%       43.4%      907,372            16,770

 WI 579*       4.49       59.2%       19.2%      477,207           595,036

 WI 581        8.24       49.4%       68.6%      143,329         2,009,255

 WI 582        5.88       59.5%       26.2%         12,432       2,623,247

 WI 588        5.01       58.0%       32.7%      199,179         1,916,499

 WI 596*       4.13       56.0%       64.7%    2,171,839

 WI 598        9.22       52.9%       64.7%    1,182,397           272,049

 WI 602       12.30       64.8%       28.1%      306,889         1,903,472




USDA/OIG-A/09016-1-Te                                                                 Page 38
                                    FEBRUARY 2000
 EXHIBIT C - TELEPHONE LOAN BORROWERS IN
               STRONG FINANCIAL CONDITION
             AS OF DECEMBER 31, 1997


                                                                     LONG-TERM DEBT
                         NET WORTH      TOTAL
                         TO TOTAL     LONG-TERM
  BORROWER     TIER       ASSETS       DEBT TO           RUS               RTB           FFB
                                       EQUITY

 WI 604          6.81        63.3%           22.9%        100,008          409,404

 WI 605        129.55        71.7%           10.4%        372,129

 WI 606         17.28        73.7%           16.8%        118,696          134,592

 WI 610          4.71        68.3%           30.7%                       2,918,672

 WI 622         27.62        60.5%           35.5%      1,016,509

 WI 626          4.61        55.3%           65.2%      1,071,997          761,295

 WI 631          4.57        57.8%           54.4%        878,942        2,926,510

 WI 632          4.08        49.6%           73.3%      2,265,563

 WI 633          4.39        51.8%           75.9%      3,275,610        1,481,991

 WI 634          8.62        65.4%           42.8%      2,309,927

 WI 639          5.19        59.8%           54.3%      3,918,169

 WV 522          4.39        69.9%           26.1%     15,039,141          628,538

 WY 514          6.24        67.7%           35.4%        135,293        1,272,514

 NMI 501         5.18        51.2%           75.6%      8,844,811        28,453,077

 TOTAL                   TOTALS                      $1,193,234,23      $595,514,32   $85,828,645
 NUMBER OF                                                      0                2
 BORROWERS        434
                         GRAND TOTAL -
                         RUS/RTB/FFB DEBT            $1,874,577,19
                                                                7


*Received telephone loan(s) during FY 1995 through FY 1999 as of August 31, 1999.

**Received telephone loan(s) in more than one fiscal year during FY 1995 through FY 1999
  as of August 31, 1999.




USDA/OIG-A/09016-1-Te                                                                          Page 39
                                            FEBRUARY 2000
EXHIBIT D - LOAN APPLICATIONS CARRIED OVER
          TO NEXT FISCAL YEAR DUE TO LACK
          OF AVAILABLE FUNDING

                                                    LOAN AMOUNTS (APPROVED)
                                                                                              HOLDOVER
       APPLICATIONS       BORROWER ID                                                          REASON
       CARRIED OVER                                      COST OF MONEY                         NOTES
                                         HARDSHIP                                  RTB

      FY 95 to FY 96:   IN 506                              $3,279,000         $1,913,100       5/
                        1/

                        TX 578            $7,000,000           1,634,000            953,400     6/
                        1/
      Subtotal
                        WI 584                                 2,529,000          1,476,300     5/
                        1/

                                          $7,000,000        $7,442,000         $4,342,800


      FY 96 to FY 97:   MN 618           $ 2,425,000                                            7/
                        1/


                        SD 517             5,226,000                                            7/
                        1/

                        WI 625             4,492,000                                            7/
                        1/

                        OK 566             7,000,000        $    544,000       $    319,200     7/
                        1/

                        MN 555    1/3/     7,000,000             321,000            187,950     7/
      Subtotal          SD 537             6,752,000                                            7/
                        1/

                        WY 519             7,000,000           2,682,000          1,577,100     7/
                        1/

                        MN 564             7,000,000           5,366,000          3,155,250     7/
                        2/

                                         $46,895,000        $8,913,000         $5,239,500


      FY 97 to FY 98:   MN 555           $ 7,000,000       $     321,000      $     187,950     7/
                        1/

                        MN 540    2/4/     5,000,000           5,928,000          3,112,200     7/

                        SD 525             7,000,000             299,000            174,300     7/
                        1/

                        ND 519             4,013,000                                            7/
                        2/

                        MN 589             5,130,000                                            7/
                        1/

                        SD 509             7,000,000           3,793,000          2,212,350     7/
                        1/

                        SD 524             7,000,000           1,804,000          1,052,100     7/
      Subtotal          1/

                        KS 593             7,000,000           2,829,000          1,649,550     7/
                        1/

                        IA 656             1,784,000                                            7/
                        2/

                        ND 521             7,000,000           5,490,000          3,202,500     7/
                        1/

                                         $57,927,000       $20,464,000        $11,590,950




USDA/OIG-A/09016-1-Te                                                                                    Page 40
                                          FEBRUARY 2000
EXHIBIT D - LOAN APPLICATIONS CARRIED OVER
          TO NEXT FISCAL YEAR DUE TO LACK
          OF AVAILABLE FUNDING

                                                         LOAN AMOUNTS (APPROVED)
                                                                                                  HOLDOVER
       APPLICATIONS       BORROWER ID                                                              REASON
       CARRIED OVER                                           COST OF MONEY                        NOTES
                                              HARDSHIP                               RTB

      FY 98 to FY 99:   MN 540               $    5,000,000      $ 5,928,000       $ 3,112,200      7/
                        2/

                        SD 539                    5,000,000       2,027,000          1,063,650      7/
                        1/

                        SD 533                    5,000,000         977,000           512,400       7/
                        1/

                        MN 501                    4,995,000                                         7/
                        2/

                        ND 536                    3,132,000                                         7/
      Subtotal          1/

                        IL 513                                    6,406,000          3,363,150      5/
                        2/

                        KS 591                    3,465,000                                         7/
                        1/

                                             $ 26,592,000        $15,338,000         8,051,400


      UNDUPLICATED
      TOTAL                                  $126,414,000        $45,908,000       $25,924,500


           1/Not included in OIG-determined "financially strong" borrowers listed in Exhibit C.

           2/Included in OIG-determined "financially strong" borrowers listed in Exhibit C.

           3/Carried over from FY 96 and FY 97.

           4/Carried over from FY 97 and FY 98.

           5/Lack of funds in Cost of Money and RTB Authority.

           6/Lack of funds in Hardship, Cost of Money and RTB Authority.

           7/Lack of funds in Hardship Authority.




USDA/OIG-A/09016-1-Te                                                                                        Page 41
                                                  FEBRUARY 2000
EXHIBIT E - SUMMARY OF AGED TELEPHONE LOAN
            OBLIGATIONS (Loans made more than 5 years prior to 01/01/99)



    LAST ADVANCE                   RURAL UTILITIES SERVICE                            RURAL TELEPHONE BANK
      (IN YEARS)
     FROM 1/1/99
       (Note 1)                                    UNADVANCED LOAN                                 UNADVANCED LOAN
                                  NUMBER                 FUNDS                    NUMBER                 FUNDS
                                 OF LOANS              (Note 2)                  OF LOANS              (Note 2)

       > 1 <= 2                            41             $94,378,354                         19      $37,246,631
       > 2 <= 3                            44               53,976,555                        27       44,977,807
       > 3 <= 4                            18               13,671,230                        17       21,913,612
       > 4 <= 5                            31               22,274,169                         7        3,266,507
       > 5 <= 6                            16               41,835,357                         7       16,549,425
       > 6 <= 7                              8                3,043,355                        9       14,297,438
       > 7 <= 8                            20               14,602,889                         4        2,454,408
       > 8 <= 9                            10               11,401,928                         9        6,160,579
      > 9 <= 10                            17                 6,218,582                        6       13,581,100
          > 10                             36               12,985,669                        11        4,073,181

 TOTAL FOR
 BORROWERS WITH
 LOAN ADVANCES                           241             $274,388,088                       116       $164,520,688

 TOTAL FOR
 BORROWERS WITH
 LOANS APPROVED
 BUT NO FUNDS
 ADVANCED IN
 5 YEARS                                   16             $44,701,000                         36      $118,651,050

 GRAND TOTAL -
 RUS AND RTB LOANS WITH UNUSED BALANCES                                                     409       $602,260,826

  NOTE 1: "> 1 <= 2" means greater than 1 and less than or equal to 2 years, etc.; "> 10"
  means greater than 10 years.

  NOTE 2: Figures include loans made more than 5 years prior to January 1, 1999, but do
  not include loans that have never had funds advanced and do not include loans not under a
  loan note.




USDA/OIG-A/09016-1-Te                                                                                       Page 42
                                                   FEBRUARY 2000
EXHIBIT F - RUS WRITTEN RESPONSE TO THE
DRAFT           REPORT




USDA/OIG-A/09016-1-Te                   Page 43
                        FEBRUARY 2000
EXHIBIT F - RUS WRITTEN RESPONSE TO THE
DRAFT           REPORT




USDA/OIG-A/09016-1-Te                   Page 44
                        FEBRUARY 2000
EXHIBIT F - RUS WRITTEN RESPONSE TO THE
DRAFT           REPORT




USDA/OIG-A/09016-1-Te                   Page 45
                        FEBRUARY 2000
EXHIBIT F - RUS WRITTEN RESPONSE TO THE
DRAFT           REPORT




USDA/OIG-A/09016-1-Te                   Page 46
                        FEBRUARY 2000
EXHIBIT F - RUS WRITTEN RESPONSE TO THE
DRAFT           REPORT




USDA/OIG-A/09016-1-Te                   Page 47
                        FEBRUARY 2000
EXHIBIT F - RUS WRITTEN RESPONSE TO THE
DRAFT           REPORT




USDA/OIG-A/09016-1-Te                   Page 48
                        FEBRUARY 2000
EXHIBIT F - RUS WRITTEN RESPONSE TO THE
DRAFT           REPORT




USDA/OIG-A/09016-1-Te                   Page 49
                        FEBRUARY 2000
EXHIBIT F - RUS WRITTEN RESPONSE TO THE
DRAFT           REPORT




USDA/OIG-A/09016-1-Te                   Page 50
                        FEBRUARY 2000
